                                           OFFICE   OF    INSPECTOR GENERAL




                               Semiannual Report to Congress
                                October 1, 2012–March 31, 2013




 www.federal reserve.gov/oig
                                 BOARD   OF   GOVERNORS   OF THE   FEDERAL RESERVE SYSTEM
www.consumerfinance.gov/oig
          04/13                          CONSUMER FINANCIAL PROTECTION BUREAU
Message from the Inspector General


On behalf of the Board of Governors of the Federal Reserve System
(Board) and the Consumer Financial Protection Bureau (CFPB), I am
pleased to present our Semiannual Report to Congress, which
highlights our accomplishments and ongoing work for the six-month
period ending March 31, 2013.

Strategic planning for the 2013–2016 period was a major focus for
the Office of Inspector General (OIG) during this semiannual
reporting period. Both the Board and the CFPB recently unveiled
their strategic plans for the coming years. Given the rapid pace of
change in our organization and in the agencies we oversee, we are
updating our strategic plan to ensure proper alignment with those of
the Board and the CFPB.
                                                                       Mark Bialek, Inspector General
As part of this process, we developed a new vision:
“To be the trusted oversight organization of the Board and the CFPB.”
This vision stems directly from our commitment to provide independent, objective, and effective
oversight and to be the primary organization responsible for addressing questions from the public and
Congress regarding the accountability of the Board and the CFPB. In this vein, our overriding
strategic goal is to provide timely, high-quality products that promote improvement within the Board
and the CFPB. Our other goals focus on developing our workforce, optimizing our engagement with
our stakeholders, and enhancing the capacity of our office to accomplish our expanded oversight
duties and maximize our own operational effectiveness.

Consistent with our new vision and goals, we also unveiled a new organizational framework. Over the
course of the last year, we conducted a complete functional assessment and organizational review of
the OIG. This review highlighted the need to effectively adapt to changed circumstances, provide
consistent and timely oversight to the Board and the CFPB, and develop expertise in key oversight
areas. In general, our new organizational framework consolidates our audits and attestations program
and our inspections and evaluations program into one Office of Audits and Evaluations, and it creates
a new Office of Information Technology.

The Office of Audits and Evaluations will have three functional components: Supervision and
Rulemaking, Management and Operations, and Financial Management and Internal Controls. This
change will streamline our staffing and planning efforts, improve the effectiveness and efficiency of
our matrix organization, and focus our resources and expertise on key oversight areas. In addition,
due to the growing importance of information technology and cybersecurity for the Board, the CFPB,
and our own internal operations, the Office of Information Technology will plan and conduct all
information technology–related audits and security reviews and evaluations, expand the OIG’s data
analytics capacity, and manage the internal OIG information technology group.

Recognizing that the Board and the CFPB will continue to evolve, we must be able to anticipate those
changes. The new OIG strategic plan and organizational framework will align us with the challenges
facing the Board and the CFPB.
I would like to thank the Board and the CFPB for their continued cooperation and support, and I
would like to thank the OIG staff for their contributions to defining our new vision and for their
exemplary work during this reporting period.

Sincerely,




Mark Bialek
Inspector General
April 30, 2013
            OFFICE    OF     INSPECTOR GENERAL




Semiannual Report to Congress
  October 1, 2012–March 31, 2013




    BOARD   OF   GOVERNORS   OF THE   FEDERAL RESERVE SYSTEM
            CONSUMER FINANCIAL PROTECTION BUREAU
Contents


Highlights ................................................................................................................................................ 1

Introduction ............................................................................................................................................. 4

Audits and Attestations ........................................................................................................................... 6

Inspections and Evaluations .................................................................................................................. 15

Information on Nonmaterial Losses to the Deposit Insurance Fund .................................................... 24

Investigations ........................................................................................................................................ 25
Legal Services ....................................................................................................................................... 31

Communications and Coordination ...................................................................................................... 32

Appendixes

      Appendix 1a—Audit, Inspection, and Evaluation Reports Issued to the Board with
      Questioned Costs during the Reporting Period ............................................................................. 34

      Appendix 1b—Audit, Inspection, and Evaluation Reports Issued to the CFPB with
      Questioned Costs during the Reporting Period .............................................................................. 34
      Appendix 2a—Audit, Inspection, and Evaluation Reports Issued to the Board with
      Recommendations That Funds Be Put to Better Use during the Reporting Period ....................... 35

      Appendix 2b—Audit, Inspection, and Evaluation Reports Issued to the CFPB with
      Recommendations That Funds Be Put to Better Use during the Reporting Period........................ 35

      Appendix 3a—OIG Reports to the Board with Recommendations That Were
      Open during the Reporting Period .................................................................................................. 36

      Appendix 3b—OIG Reports to the CFPB with Recommendations That Were
      Open during the Reporting Period .................................................................................................. 37

      Appendix 4a—Audit, Inspection, and Evaluation Reports Issued to the Board during the
      Reporting Period ............................................................................................................................. 38

      Appendix 4b—Audit, Inspection, and Evaluation Reports Issued to the CFPB during the
      Reporting Period ............................................................................................................................. 38

      Appendix 5—OIG Peer Reviews ................................................................................................... 39

      Appendix 6—Index of IG Act Reporting Requirements ................................................................ 40

      Abbreviations...................................................................................................................... 41
Highlights


Consistent with our responsibilities under the Inspector General Act of 1978, as amended (IG Act), the
Office of Inspector General (OIG) continued to promote the integrity, economy, efficiency, and
effectiveness of the programs and operations of the Board of Governors of the Federal Reserve System
(Board) and the Consumer Financial Protection Bureau (CFPB). The following are highlights of our
work during this semiannual reporting period.


Audits and Evaluations
Review of the Failure of Bank of Whitman. On September 21, 2011, the Federal Deposit Insurance
Corporation (FDIC) estimated that Bank of Whitman’s failure would result in a $134.8 million loss to
the Deposit Insurance Fund (DIF), which did not exceed the $200 million materiality threshold that
would have triggered a material loss review. While the loss to the DIF was below the materiality
threshold, we conducted an in-depth review after determining that Bank of Whitman’s failure
presented unusual circumstances because of various questionable transactions and business practices
involving senior management. Bank of Whitman became a state member bank in 2004, and the
Federal Reserve Bank of San Francisco (FRB San Francisco) complied with premembership
supervisory requirements. FRB San Francisco also complied with examination frequency guidelines
for the time frame we reviewed, 2005 through 2011, and conducted regular offsite monitoring.
However, in our opinion, FRB San Francisco had multiple opportunities to take stronger supervisory
action to address the bank’s persistent deficiencies. We recommended that the Director of the
Division of Banking Supervision and Regulation (BS&R) review the supervisory approach for
premembership examinations and determine whether enhancements to the current approach are
appropriate.

Evaluation of Freedom of Information Act Exemption. Section 1103 of the Dodd-Frank Wall
Street Reform and Consumer Protection Act (Dodd-Frank Act) amended section 11 of the Federal
Reserve Act (FRA) to establish mandatory disclosure dates for information concerning the borrowers
and counterparties participating in emergency credit facilities, discount window lending programs, and
open market operations that are authorized by the Board. Prior to these mandatory release dates, the
Dodd-Frank Act exempts this information from disclosure under the Freedom of Information Act
(FOIA). In this evaluation, which was mandated in the Dodd-Frank Act, we did not find evidence that
the FOIA exemption included in section 11(s) of the amended FRA has impacted the public’s ability
to access information concerning the Board’s administration of emergency credit facilities, discount
window lending programs, or open market operations. We determined that neither the Board nor the
Federal Open Market Committee has utilized the FOIA exemption to withhold information regarding
any FOIA requests received from July 21, 2010, the date the exemption became effective, through
October 31, 2012, the end of our FOIA review period. We also found that the Federal Reserve System
provides a significant amount of publicly available information about the administration of these
facilities, programs, and operations, including statutorily mandated disclosures. In addition, we noted
that if the FOIA exemption in section 11(s) of the FRA were eliminated, the earlier release of
transaction-level information could have adverse impacts on individual institutions and the broader
financial markets, as well as on the effectiveness of the emergency credit facilities, discount window
lending programs, and open market operations as tools to effect monetary policy and respond to
financial crises. We did not recommend any change to the FOIA exemption that Congress provided in
section 11(s) of the amended FRA.



                                             Semiannual Report to Congress │ October 1, 2012–March 31, 2013   1
Audit of the Board’s Purchase Card Program. Overall, we found that controls over the Board’s
purchase card program can be strengthened. Controls for issuing cards to Board employees, training
new cardholders, and recording and reconciling purchases by cardholders were working as intended.
However, we found that controls to ensure that cardholders properly use purchase cards and comply
with Board policies and procedures were not working as described in the Board’s Purchase Card
Procedures. We also found that controls designed to prevent and detect unauthorized purchases can
be strengthened. Our testing did not identify any fraudulent purchases. However, we found that more
than 60 percent of the purchases in our sample lacked evidence of approval due to the absence of
postcertification reviews. We made three recommendations designed to help strengthen controls for
ensuring compliance with purchase card policies and procedures and for detecting potentially
unauthorized transactions.

Evaluation of the CFPB’s Contract Solicitation and Selection Processes. We found that the CFPB
established internal processes and procedures to facilitate Federal Acquisition Regulation (FAR)
compliance related to contract solicitation and selection activities; however, opportunities exist to
strengthen internal controls. We found that the CFPB’s processes and practices were compliant with
particular FAR requirements, but at the time of our review, we could not determine whether the
CFPB’s competition advocate was fulfilling each of the responsibilities described in the FAR.
Further, at the time of our review we found that the CFPB had not yet finalized certain CFPB policies
and procedures that facilitate FAR compliance in solicitation and selection activities. We also found
that the CFPB had expedited contracts in some instances, but we could not determine the reason for
the urgency. We made three recommendations to help strengthen the CFPB’s internal controls related
to contracting.

Annual Audits of the Board’s and the CFPB’s Information Security Programs. We completed
our annual Federal Information Security Management Act of 2002 (FISMA) audits of the Board and
the CFPB. At the Board, we found that overall, the Board’s Chief Information Officer (CIO) is
maintaining a FISMA-compliant approach to the Board’s information security program that is
generally consistent with requirements established by the National Institute of Standards and
Technology (NIST) and the Office of Management and Budget (OMB). The report recommendation
from our 2011 FISMA review remains open as work continues on various phases of the information
technology (IT) risk assessment framework initiative and continuous monitoring strategy, and we
issued two new recommendations related to the Board’s contractor oversight program and incident
response and reporting program.

At the CFPB, we found that overall, steps have been taken to develop, document, and implement an
information security program. However, we recommended that the CIO (1) develop and implement a
comprehensive information security strategy that identifies specific goals, objectives, milestones, and
resources to establish a FISMA-based information security program; (2) finalize the agency-wide
information security policy and develop procedures to facilitate the implementation of the policy; and
(3) analyze the CFPB’s contractor oversight processes and information security controls for additional
contractor-operated systems and take actions, as necessary, to ensure that FISMA and CFPB
information security requirements are met.


Investigations
Former Senior Executives of the Bank of the Commonwealth and a Local Real Estate Developer
Indicted for Bank Fraud. According to the superseding indictment, in 2006 executives at the Bank
of the Commonwealth began an aggressive expansion beyond its traditional lending focus in Norfolk
and Virginia Beach to include opening branches in northeastern North Carolina and the Outer Banks.
The indictment alleges that many of the Bank of the Commonwealth’s loans were funded and
administered without regard to industry standards and their own lending policy and internal controls.


2   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
By the end of 2008, the volume of troubled loans and foreclosed real estate soared and negatively
impacted the bank’s capital. From 2008 through 2011, the Bank of the Commonwealth executives
allegedly masked the bank’s true financial condition out of fear that the bank’s declining health would
negatively impact investor and customer confidence. The Bank of the Commonwealth was closed by
the regulators in 2011, and the FDIC estimated the loss to the DIF to be $268 million.

Twelve individuals associated with the Bank of the Commonwealth investigation were charged in the
Eastern District of Virginia with bank fraud, conspiracy to commit bank fraud, false entries, false
statements to a financial institution, and misapplication of bank funds. To date, seven defendants have
entered guilty pleas to the charges: Three of the seven defendants have been sentenced to a total of
308 months in prison and $32 million in restitution, and sentencing for the remaining four is scheduled
for May 2013. The trial for the five defendants who did not enter guilty pleas began March 19, 2013.

Business Owner Sentenced for Bank Fraud. On March 14, 2013, the former owner of an Illinois
agricultural business was sentenced to 14 months in prison and 5 years’ supervised release and was
ordered to pay over $9.8 million in restitution. As previously reported, on September 29, 2011, the
former owner was indicted on charges that he overstated the accounts receivable of his business to
obtain a $10 million line of credit. According to the indictment, from 2006 to June 2008, the former
owner obtained a substantial amount of financing from Corn Belt Bank. In May 2008, when Corn
Belt Bank was no longer able to provide sufficient financial support, the former owner arranged for
financing with Peoples Bank and Trust, which included the $10 million line of credit. The purposes of
the loan included financing the operations of the business and paying off a prior loan from Corn Belt
Bank. Corn Belt Bank purchased a 20 percent participation in the loan. In February 2009, Corn Belt
Bank was placed in receivership. The indictment alleged that the former owner provided false
information to Peoples Bank and Trust to secure the $10 million line of credit as well as after the line
of credit was approved and funded. Ultimately, the business defaulted on the loan, resulting in a loss
of most of the $10 million Peoples Bank and Trust loaned to the business.




                                              Semiannual Report to Congress │ October 1, 2012–March 31, 2013   3
Introduction


Congress established the OIG as an independent oversight authority of the Board, the government
agency component of the broader Federal Reserve System, and of the CFPB. Within this framework,
the OIG conducts audits, investigations, and other reviews related to Board and CFPB programs and
operations. By law, the OIG is not authorized to perform program functions.

Consistent with the IG Act, our office, as the OIG for the Board and the CFPB, has the following
responsibilities:

    	 to conduct and supervise independent and objective audits, investigations, and other reviews
       related to Board and CFPB programs and operations to promote economy, efficiency, and
       effectiveness within the Board and the CFPB

    	 to help prevent and detect fraud, waste, abuse, and mismanagement in Board and CFPB
       programs and operations

    	 to review existing and proposed legislation and regulations and make recommendations
       regarding possible improvements to Board and CFPB programs and operations

    	 to keep the Board of Governors, the Director of the CFPB, and Congress fully and currently
       informed

Congress has also mandated additional responsibilities that influence the OIG’s priorities, to include
the following:

    	 Section 38(k) of the Federal Deposit Insurance Act, as amended (FDI Act) requires that the
       OIG review failed financial institutions supervised by the Board that result in a material loss to
       the DIF and produce a report within six months. Section 38(k) also requires that the OIG
       report on the results of any nonmaterial losses to the DIF that exhibit unusual circumstances
       that warrant an in-depth review.

    	 Section 211(f) of the Dodd-Frank Act requires that the OIG review the Board’s supervision of
       any covered financial company that is placed into receivership and produce a report that
       evaluates the effectiveness of the Board’s supervision, identifies any acts or omissions by the
       Board that contributed to or could have prevented the company’s receivership status, and
       recommends appropriate administrative or legislative action.

    	 Section 989E of the Dodd-Frank Act established the Council of Inspectors General on
       Financial Oversight (CIGFO), which comprises the Inspectors General (IGs) of the Board, the
       Commodity Futures Trading Commission, the Department of Housing and Urban
       Development, the U.S. Department of the Treasury (Treasury), the FDIC, the Federal Housing
       Finance Agency, the National Credit Union Administration, the Securities and Exchange
       Commission, and the Special Inspector General for the Troubled Asset Relief Program
       (SIGTARP). CIGFO is required to meet at least quarterly to share information and discuss the
       ongoing work of each IG, with a focus on concerns that may apply to the broader financial
       sector and ways to improve financial oversight. Additionally, CIGFO is required to issue a
       report annually that highlights the IGs’ concerns and recommendations, as well as issues that
       may apply to the broader financial sector. CIGFO also has the authority to convene a working


4   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
    group of its members to evaluate the effectiveness and internal operations of the Financial
    Stability Oversight Council (FSOC), which was created by the Dodd-Frank Act and is charged
    with identifying threats to the nation’s financial stability, promoting market discipline, and
    responding to emerging risks to the stability of the nation's financial system.

	 With respect to IT, FISMA established a legislative mandate for ensuring the effectiveness of
   information security controls over resources that support federal operations and assets.
   Consistent with FISMA requirements, we perform annual independent reviews of the Board’s
   and the CFPB’s information security programs and practices, including the effectiveness of
   security controls and techniques for selected information systems.

	 The USA Patriot Act of 2001 grants the Board certain federal law enforcement authorities.
   Our office serves as the external oversight function for the Board’s law enforcement program.

	 Section 11B of the FRA mandates annual independent audits of the financial statements of
   each Federal Reserve Bank and the Board. We oversee the annual financial statement audits
   of the Board as well as the Federal Financial Institutions Examination Council (FFIEC). (The
   Board performs the accounting function for the FFIEC.) The FFIEC is a formal interagency
   body empowered to prescribe uniform principles, standards, and report forms for the federal
   examination of financial institutions by the Board, the FDIC, the National Credit Union
   Administration, the Office of the Comptroller of the Currency (OCC), and the CFPB and to
   make recommendations to promote uniformity in the supervision of financial institutions. In
   2006, the State Liaison Committee was added to the FFIEC as a voting member. The State
   Liaison Committee includes representatives from the Conference of State Bank Supervisors,
   the American Council of State Savings Supervisors, and the National Association of State
   Credit Union Supervisors. (Under the Dodd-Frank Act, the Government Accountability
   Office performs the financial statement audits of the CFPB.)




                                         Semiannual Report to Congress │ October 1, 2012–March 31, 2013   5
                                         DRAFT―Restricted FR


Audits and Attestations


The Audits and Attestations program assesses aspects of the economy, efficiency, and effectiveness of
Board and CFPB programs and operations. For example, Audits and Attestations conducts audits of
(1) the Board’s financial statements and financial performance reports; (2) the efficiency and
effectiveness of processes and internal controls over agency programs and operations; (3) the
adequacy of controls and security measures governing agency financial and management information
systems and the safeguarding of assets and sensitive information; and (4) compliance with applicable
laws and regulations related to agency financial, administrative, and program operations. As
mandated by the IG Act, OIG audits and attestations are performed in accordance with the
Government Auditing Standards established by the Comptroller General. The information below
summarizes OIG work completed during the reporting period and ongoing work that will continue into
the next semiannual reporting period.


Completed Audit Work at the Board
Controls over the Board’s Purchase Card Program Can Be Strengthened
OIG Report No. 2013-AA-B-006, March 29, 2013

Our overall objective for this audit was to evaluate the effectiveness of controls over the Board’s
purchase card program. Specifically, we assessed the effectiveness of controls for issuing cards to
Board employees and ensuring proper use, including (1) determining if controls were adequate to
ensure cardholder compliance with Board policies and procedures and (2) assessing whether controls
were adequate to prevent and detect improper and fraudulent use of purchase cards.

The Board participates in the government-wide purchase card program known as the General Services
Administration SmartPay2 program. Through this program, the Board contracts for purchase card
services with JPMorgan Chase (JPMC), and it authorizes JPMC to issue purchase cards to designated
employees. JPMC invoices the Board for cardholders’ purchases, which are required to comply with
the Board’s Acquisition policy and Purchase Card Procedures. The Board is liable for transactions
made by authorized cardholders.

Overall, we found that controls over the Board’s purchase card program can be strengthened. Controls
for issuing cards, training new cardholders, and recording and reconciling purchases by cardholders
were working as intended. However, we found that controls to ensure that cardholders properly use
purchase cards and comply with Board policies and procedures were not working as described in the
Board’s Purchase Card Procedures. We also found that controls designed to prevent and detect
unauthorized purchases can be strengthened. Our testing did not identify any fraudulent purchases.
However, we found that more than 60 percent of the purchases in our sample lacked evidence of
approval due to the absence of postcertification reviews.

We made three recommendations designed to help strengthen controls for ensuring compliance with
purchase card policies and procedures and for detecting potentially unauthorized transactions.
Management stated that it concurred with the process improvements included in our recommendations
and is already addressing specific aspects of the recommendations.




6   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
2012 Audit of the Board’s Information Security Program
OIG Report No. 2012-AA-B-001, November 14, 2012

This annual audit of the Board’s information security program and practices was performed pursuant
to FISMA, which requires each agency IG to conduct an annual independent evaluation of the
agency’s information security program and practices. Our specific audit objectives were to evaluate
the effectiveness of security controls and techniques for selected information systems and to evaluate
the Board’s compliance with FISMA and related information security policies, procedures, standards,
and guidelines provided by NIST, OMB, and the Department of Homeland Security.

In accordance with reporting requirements, our FISMA review included an analysis of the Board’s
security-related processes in the following areas: risk management, continuous monitoring
management, plan of action and milestones, identity and access management, remote access
management, configuration management, security training, contractor systems, contingency planning,
incident response and reporting, and security capital planning.

Overall, we found that the Board’s CIO is maintaining a FISMA-compliant approach to the Board’s
information security program that is generally consistent with requirements established by NIST and
OMB. During the past year, the Information Security Officer (ISO) continued to issue and update
information security policies and guidelines. In addition, progress has been made to implement (1) an
enterprise IT risk assessment framework initiative and a continuous monitoring strategy as well as
(2) a new automated workflow support tool to provide an automated method for documenting,
reviewing, and approving the security posture of all Board information systems. These efforts were
undertaken to transform the Board’s Certification and Accreditation process into the NIST Risk
Management Framework.

An additional part of the overall risk assessment framework requires the CIO to ensure that risk
assessments are adequately identifying, evaluating, and documenting the level of risk to information
systems based on potential threats, vulnerabilities, and currently implemented or planned controls to
determine whether additional controls are needed. Although progress has been made by the ISO to
address the NIST guidance regarding risk management, the enterprise IT risk assessment framework
needs to be fully implemented Board-wide and the automated workflow support tool needs to be fully
operational for the Board to meet the requirements of NIST’s organization-wide risk management
approach. Our prior 2011 report contained one recommendation: that the CIO complete and fully
implement the enterprise IT risk assessment framework Board-wide and ensure that the automated
workflow support tool is fully operational in order to comply with updated NIST guidance on the new
Risk Management Framework. This recommendation will remain open as work continues on various
phases of the IT risk assessment framework initiative and continuous monitoring strategy. We will
continue to monitor the ISO’s actions in implementing the enterprise IT risk assessment framework
Board-wide, which includes improving overall risk assessments.

Our 2012 report contained two new recommendations related to the Board’s contractor oversight
program and incident response and reporting program. First, to ensure that all Board data meet the
requirements of the Board Information Security Program and NIST standards and controls, we
recommend that the CIO develop and implement a security review process for third-party systems
located outside the Federal Reserve System to ensure that systems employ information security
controls sufficient to meet the requirements of the Board Information Security Program and NIST
standards. Second, we recommend that the CIO document the roles and responsibilities of the Board
and National Incident Response Team staffs supporting Board incidents and analyze changes that are
needed to existing agreements to ensure that the respective roles and responsibilities of the National
Incident Response Team and the Board are specified. The Director of the Division of Information
Technology, in her capacity as the CIO, agreed with the two recommendations in our report and has
initiated efforts to address both issues.




                                              Semiannual Report to Congress │ October 1, 2012–March 31, 2013   7
Board of Governors of the Federal Reserve System Financial Statements
as of and for the Years Ended December 31, 2012 and 2011, and
Independent Auditors’ Reports
We contract with an independent public accounting firm to annually perform an integrated audit of the
Board’s financial statements and internal controls over financial reporting. The accounting firm,
currently Deloitte & Touche LLP, performs the audit to provide reasonable assurance that the financial
statements are free of material misstatement and to express an opinion on the effectiveness of the
Board’s internal controls over financial reporting based on the Public Company Accounting Oversight
Board standards. The OIG oversees the activities of the contractor to ensure compliance with
generally accepted government auditing standards and Public Company Accounting Oversight Board
auditing standards related to internal controls over financial reporting. The audit involves performing
procedures to obtain audit evidence about the amounts and disclosures in the financial statements. The
audit also includes evaluating the appropriateness of accounting policies used and the reasonableness
of significant accounting estimates made by management, as well as an evaluation of the overall
financial statement presentation.

In the auditors’ opinion, the Board’s financial statements presented fairly, in all material respects, the
financial position and the results of its operations and its cash flows as of December 31, 2012, and
2011, in conformity with U.S. generally accepted accounting principles. Also, in the auditor’s
opinion, the Board maintained, in all material respects, effective internal control over financial
reporting as of December 31, 2012, based on the criteria established in the Internal Control–Integrated
Framework issued by the Committee of Sponsoring Organizations of the Treadway Commission.

As part of providing reasonable assurance that the financial statements are free of material
misstatement, the auditors also performed tests of the Board’s compliance with certain provisions of
laws and regulations, since noncompliance with these provisions could have a direct and material
effect on the determination of the financial statement amounts. The results of the auditors’ tests
disclosed no instances of noncompliance that would be required to be reported under Government
Auditing Standards.


Federal Financial Institutions Examination Council Financial Statements
as of and for the Years Ended December 31, 2012 and 2011, and
Independent Auditors’ Reports
The Board performs the accounting function for the FFIEC, and we contract with an independent
public accounting firm to annually audit the council’s financial statements. The accounting firm,
currently Deloitte & Touche LLP, performs the audits to provide reasonable assurance that the
financial statements are free of material misstatement. The OIG oversees the activities of the
contractor to ensure compliance with generally accepted government auditing standards. The audit
involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The audit also includes evaluating the appropriateness of accounting policies
used and the reasonableness of significant accounting estimates made by management, as well as an
evaluation of the overall financial statement presentation.

To determine the auditing procedures necessary to express an opinion on the financial statements, the
auditors considered the FFIEC’s internal controls over financial reporting. As part of providing
reasonable assurance that the financial statements are free of material misstatement, the auditors also
performed tests of the FFIEC’s compliance with certain provisions of laws and regulations, since
noncompliance with these provisions could have a direct and material effect on the determination of
the financial statement amounts.



8   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
In the auditors’ opinion, the FFIEC’s financial statements presented fairly, in all material respects, the
financial position, results of operations, and cash flows as of December 31, 2012, and 2011, in
conformity with accounting principles generally accepted in the United States. To determine the
auditing procedures necessary to express an opinion on the financial statements, the auditors reviewed
the FFIEC’s internal control over financial reporting. The auditors noted no matters involving internal
control over financial reporting that were considered material weaknesses in accordance with
Government Auditing Standards.

As part of providing reasonable assurance that the financial statements are free of material
misstatement, the auditors also performed tests of the FFIEC’s compliance with certain laws and
regulations, since noncompliance with these provisions could have a direct and material effect on the
determination of the financial statement amounts. The results of the auditors’ tests disclosed no
instances of noncompliance that would be required to be reported under Government Auditing
Standards.


Audit Observations on the Board’s Planning and Contracting Process for the
Martin Building Construction, Renovation, and Relocation of Staff
OIG Report No. 2013-AA-B-007, March 29, 2013

The Board’s strategic framework for 2012–2015 identified that upgrades to its physical infrastructure
were necessary to ensure that the work environment is secure, modern, and attractive. A
comprehensive renovation of the Martin Building, including the construction of a conference center
and a visitors’ center, will address these concerns and will require significant contracting efforts, space
planning, and relocation of staff. We conducted an audit survey to gather information on, and to gain
an understanding of, the current status of the Martin Building construction and renovation, the space
planning process, and leasing policies and procedures to identify potential areas for audit.

Overall, we noted that the Martin Building renovation project has gone through a lengthy design
phase, primarily due to significant scope changes. As a result of these scope changes and other delays
by the Board, the Board has paid claims totaling $139,165 for increases in the architectural and
engineering (A/E) firm’s labor rates. In addition, the A/E firm recently submitted an additional claim
that is currently under review by the Board.

We highlighted the above-mentioned observations for management’s attention as lessons learned
while the construction and renovation project continues. The Board will be soliciting a construction
contract for the Martin Building renovations, the visitors’ center, and the conference center with an
estimated cost of approximately $180 million, an amount over 10 times higher than the current A/E
contract. Similar delays occurring during construction could lead to significantly higher claims and
increased costs for the Board due to the size of the construction contract and the nature of construction
work. Moving forward, we believe it is important for the Board to ensure that specific plans are
finalized before contracts are awarded to minimize the risk of additional delays and potential increases
in costs during construction. The Board concurred with our observations and concerns and stated that
actions are being taken to minimize the risk of additional delays and potential increases in cost during
construction.


Security Control Review of Contingency Planning Controls for the Information
Technology General Support System
OIG Report No. 2012-AA-B-003, November 19, 2012

We completed a security control review of the contingency planning controls provided by the General
Support System supported by the Division of Information Technology (IT GSS). Our objective was to



                                               Semiannual Report to Congress │ October 1, 2012–March 31, 2013   9
determine whether the Board is maintaining a contingency program for the IT GSS that is generally
consistent with related NIST and OMB FISMA guidance.

Overall, we found that the Board has established and is maintaining a contingency program for the
IT GSS that is generally consistent with NIST and OMB FISMA requirements. Although we did not
identify any significant discrepancies, we found opportunities to strengthen the IT GSS contingency
planning. Our report included five recommendations to management to strengthen controls.
Management generally agreed with our recommendations and discussed corrective actions that have
already been completed, are underway, or are planned.


Follow-up Audit Work at the Board
Follow-up on the Audit of Blackberry and Cell Phone Internal Controls
We completed a second follow-up review of our March 2009 Audit of Blackberry and Cell Phone
Internal Controls. The report contained three recommendations designed to improve existing controls
used to manage and account for devices. Our previous follow-up work resulted in the closure of two
recommendations, as well as the partial closure of the third recommendation, which pertained to
recording all entries in the Secure Inventory Closet (SIC) transaction log and performing monthly
reconciliations of the Badge Access log; ensuring proper segregation of duties among IT staff; and
receiving reports of upcoming employee retirements, separations, and transfers to ensure that devices
are returned before the employees’ retirement, separation, or transfer date.

During the current review, we examined actions taken by the Division of Information Technology to
address the remaining open recommendation regarding the positioning of the security camera in the
SIC to closely monitor IT personnel actions regarding devices stored in the SIC. Based on our follow-
up work, we determined that sufficient action had been taken to close the remaining recommendation.
Specifically, we found that IT management has implemented several controls to manage and account
for devices. These controls consist of the SIC transaction log, automated Badge Access logs, a web-
based inventory system that records devices with a barcode scanner, and periodic physical inventories.
Additionally, IT personnel who have access to the devices stored in the SIC utilize a three-factor entry
method: an authorized badge, an SIC key, and a separate key to access storage cabinets located within
the SIC where devices are stored.


Ongoing Audit Work at the Board
Audit of the Board’s Internal Control Processes
We continued our audit of the Board’s internal control processes. Our objective is to assess the
processes for establishing, maintaining, and monitoring internal controls across the Board’s
divisions. A properly designed and effectively implemented internal control process is intended to
provide reasonable assurance that policies are followed and objectives are met; programs achieve their
intended results; resource use is consistent with laws, regulations, and policies; and reliable
information is obtained, maintained, reported, and used for decisionmaking. We have completed
fieldwork, and we expect to complete our audit during the next semiannual reporting period.




10   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Review of the Financial Stability Oversight Council’s Process to Designate
Financial Market Utilities as Systemically Important
In 2013, CIGFO convened a working group to examine the rules, procedures, and practices established
by FSOC and its member agencies to designate financial market utilities (FMUs) as systemically
important and therefore subject to the requirements of title VIII of the Dodd-Frank Act. In addition,
the working group made inquiries regarding FSOC’s processes to designate payment, clearing, and
settlement activities conducted by financial institutions as systemically important.

As the independent oversight entity of the Board, the OIG is a member of the working group. During
this reporting period, we completed fieldwork that enabled us to understand and assess the Board’s
role in (1) assisting FSOC to determine the FMUs that should be designated as systemically important
and (2) FSOC’s monitoring processes for identifying and designating additional FMUs or rescinding
prior FMU designations. In addition, we made inquiries regarding the status of FSOC’s processes to
designate payment, clearing, and settlement activities conducted by financial institutions as
systemically important. The CIGFO working group plans to issue a report to FSOC in June 2013.


Security Control Review of a Third-party Commercial Data Exchange Service
Used by the Board’s Division of Banking Supervision and Regulation

We completed our fieldwork and began drafting the report for a security control review of a third-
party commercial data exchange service used by BS&R. This application is listed on the Board’s
FISMA inventory as a third-party application maintained for BS&R by the Federal Reserve Bank of
Philadelphia. Our review objectives are to (1) evaluate the adequacy of certain control techniques for
protecting data in the system from unauthorized access, modification, destruction, or disclosure and
(2) assess compliance with the Board Information Security Program. We expect to complete this
review and issue our final report in the next reporting period.


Security Control Review of the Board’s National Examination Database
System
We completed our fieldwork and began drafting the report for a security control review of the Board’s
National Examination Database System. The National Examination Database System is a major
application of the Board that is utilized by BS&R. Our objectives are to (1) evaluate the adequacy of
certain control techniques designed to protect data in the system from unauthorized access,
modification, destruction, or disclosure and (2) assess compliance with the Board Information Security
Program and FISMA requirements. We expect to complete the review and issue our final report
during the next semiannual reporting period.


Audit of the Board’s Information Technology Contingency Planning and
Continuity of Operations Program
We initiated an audit of the IT contingency planning and continuity of operations of the Board. Our audit
will focus on reviewing how the Board’s contingency planning and continuity of operations programs
will provide a coordinated strategy involving plans, procedures, and technical measures that enable the
recovery of information systems, operations, and data after a disruption. In addition, we will review
the cost of maintaining the Board’s IT continuity of operations program in an effort to identify cost
savings and opportunities to enhance efficiencies.




                                             Semiannual Report to Congress │ October 1, 2012–March 31, 2013   11
Audit of Redundant Provisioning of Information Technology Services across
Board Divisions
We initiated an audit to determine whether there is any redundant provisioning of IT services across
Board divisions. Our audit will focus on identifying (1) how IT services are provided across the
organization and (2) the potential to enhance operational efficiencies. In the Board’s strategic
framework for the next three years, the sixth strategic theme is to establish a cost-reduction approach
for Board operations that maintains an effective and efficient use of financial resources. Accordingly,
Board divisions have linked their objectives to the strategic framework and are working to identify
opportunities for potential cost savings and to improve operational efficiencies.


Audit of the Board’s STAR Modernization Project
We initiated an audit of the STAR modernization project. STAR is the central computer application
used by the statistics function at the Federal Reserve Banks and the Board to collect and edit over 75
periodic statistical reports from financial institutions. Our audit will focus on the adequacy and
internal controls of the development process for the new system, including the cost and schedule. In
addition, we will assess how security controls are being built into the system.


Audit of the Relocation of the Board’s Data Center
We initiated an audit of the relocation of the Board’s data center. The Board’s data center operates 24
hours a day, 365 days a year to monitor the operation of the Board’s mainframe and the status of the
file servers and other critical components of the Board’s distributed network. The Board is
transitioning to a new data center because the critical cooling capacity of the existing data center has
been stressed during peak summer loads, and its critical power capacity is expected to be insufficient
by 2013. Our audit will focus on reviewing costs associated with the new data center and reviewing
how the Board is implementing physical and environmental controls.


Completed Audit Work at the CFPB
2012 Audit of the Consumer Financial Protection Bureau’s Information
Security Program
OIG Report No. 2012-AA-C-002, November 15, 2012

We performed this annual audit of the CFPB’s information security program pursuant to FISMA,
which requires each agency IG to conduct an annual independent evaluation of the agency’s
information security program and practices. Our specific audit objectives were to evaluate the
effectiveness of security controls and techniques for selected information systems and to evaluate
compliance by the CFPB with FISMA and related information security policies, procedures, standards,
and guidelines provided by NIST, OMB, and the Department of Homeland Security.

In accordance with reporting requirements, our FISMA review included an analysis of the CFPB’s
security-related processes in the following areas: risk management, continuous monitoring
management, plan of action and milestones, identity and access management, remote access
management, configuration management, security training, contractor systems, contingency planning,
incident response and reporting, and security capital planning.




12   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Overall, we found that the CFPB has taken several steps to develop, document, and implement an
information security program. For example, the CFPB has drafted agency-wide information security
and acceptable-use policies, as well as procedures for continuous monitoring and risk management. In
addition, the CFPB has developed an inventory of FISMA-reportable systems and a baseline of
security controls for its information systems. However, we found that additional steps are needed to
fully develop, document, and implement an information security program that is consistent with
FISMA.

We recommended that the CIO develop and implement a comprehensive information security strategy
that identifies specific goals, objectives, milestones, and resources to establish a FISMA-based
information security program; finalize the agency-wide information security policy and develop
procedures to facilitate the implementation of the policy; and analyze the CFPB’s contractor oversight
processes and information security controls for additional contractor-operated systems and take
actions, as necessary, to ensure that FISMA and CFPB information security requirements are met.
The CIO concurred with our recommendations and outlined actions that have been taken, are
underway, and are planned to strengthen CFPB’s information security program.


Security Control Review of the Consumer Financial Protection Bureau’s
Consumer Response System
OIG Report No. 2013-AA-C-005, March 28, 2013

We conducted this security control review of the CFPB’s Consumer Response System (CRS) to
evaluate the adequacy of selected security controls for protecting the CRS from unauthorized access,
modification, destruction, or disclosure, as well as the system’s compliance with FISMA and CFPB
information security policies, procedures, standards, and guidelines. The CRS is a contractor-operated
system used by the CFPB to collect, investigate, and respond to consumer complaints regarding
certain financial products and services. It is listed on the CFPB’s FISMA inventory as a major
application.

Overall, we found that a number of steps have been taken to secure the CRS. However, we found that
improvements are needed to ensure that FISMA requirements are met. Our report included nine
recommendations to CRS management to strengthen security controls for the system. The Acting CIO
concurred with our recommendations and outlined actions that have been taken, are underway, and are
planned to address our recommendations.


Ongoing Audit Work at the CFPB

Audit of the CFPB’s Travel Card Program
We initiated an audit of the CFPB’s travel card program. The CFPB’s travel card program provides
employees with the resources needed to arrange and pay for official business travel, relocation, and
other related expenses and receive reimbursements for such expenses. A recent report by an
independent auditor noted that many of the CFPB’s travel and relocation policies and procedures need
enhancements to ensure program efficiency and effectiveness, as a significant amount of the CFPB’s
daily operations require travel. The objective of this audit is to determine the effectiveness of the
CFPB’s internal controls for its travel card program. We will review compliance with policies and
procedures, and we will assess whether internal controls are designed and operating effectively to
(1) provide reasonable assurance that cards are properly issued, monitored, and closed out and
(2) prevent and detect fraudulent or unauthorized use of travel cards. We expect to issue our final
report in the next reporting period.



                                            Semiannual Report to Congress │ October 1, 2012–March 31, 2013   13
Audit of the CFPB’s Purchase Card Program
We initiated an audit of the CFPB’s purchase card program. Use of the government purchase card
provides a number of advantages when procuring goods and services. However, past audits by
individual federal agencies of their purchase card programs, as well as audits conducted by the
Government Accountability Office, have identified weaknesses and vulnerabilities in the federal
purchase card program. The objective of this audit is to assess whether the controls for the
CFPB’s purchase card program are adequate to (1) ensure that purchase card use is appropriate and in
compliance with applicable laws, regulations, and CFPB policies and procedures and (2) prevent and
detect improper or fraudulent use of purchase cards. We are currently developing the audit’s scope
and methodology, and we expect to complete our audit during the next semiannual reporting period.


Review of the Financial Stability Oversight Council’s Process to Designate
Financial Market Utilities as Systemically Important
In 2013, CIGFO convened a working group to examine the rules, procedures, and practices established
by FSOC and its member agencies to designate FMUs as systemically important and therefore subject
to the requirements of title VIII of the Dodd-Frank Act. In addition, the working group made inquiries
regarding FSOC’s processes to designate payment, clearing, and settlement activities conducted by
financial institutions as systemically important.

As the independent oversight entity of the CFPB, the OIG is a member of the working group. During
this reporting period, we completed fieldwork that enabled us to understand and assess the CFPB’s
role in (1) assisting FSOC to determine the FMUs that should be designated as systemically important
and (2) FSOC’s monitoring processes for identifying and designating additional FMUs or rescinding
prior FMU designations. In addition, we made inquiries regarding the status of FSOC’s processes to
designate payment, clearing, and settlement activities conducted by financial institutions as
systemically important. The CIGFO working group plans to issue a report to FSOC in June 2013.




14   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Inspections and Evaluations


The Inspections and Evaluations program encompasses OIG inspections, program evaluations,
enterprise risk management activities, process design and life cycle evaluations, and legislatively
mandated reviews of failed financial institutions supervised by the Board. Inspections are generally
narrowly focused on a particular issue or topic and provide time-critical analysis that cuts across
functions and organizations. In contrast, evaluations are generally focused on a specific program or
function and make extensive use of statistical and quantitative analytical techniques. Evaluations can
also encompass other preventive activities, such as reviews of system development life cycle projects
and participation on task forces and workgroups. OIG inspections and evaluations are performed
according to the Quality Standards for Inspection and Evaluation issued by the Council of the
Inspectors General on Integrity and Efficiency (CIGIE).


Completed Inspection and Evaluation Work at the Board
Failed Bank Reviews
                               Section 38(k) of the FDI Act requires that the IG of the appropriate
                               federal banking agency complete a review of the agency’s supervision
                               of a failed institution and issue a report within six months of
                               notification from the FDIC OIG when the projected loss to the DIF is
                               material. Under section 38(k) of the FDI Act, as amended, a material
                               loss to the DIF is defined as an estimated loss in excess of $200 million
                               for losses that occurred from January 1, 2010, through December 31,
                               2011. For the period January 1, 2012, through December 31, 2013, a
                               material loss to the DIF is defined as $150 million.

The material loss review provisions of section 38(k) require that the IG do the following:

       review the institution’s supervision, including the agency’s implementation of prompt
        corrective action
       ascertain why the institution’s problems resulted in a material loss to the DIF
       make recommendations for preventing any such loss in the future

For bank failures that result in losses to the DIF below the materiality threshold, the IG must review
the failure to determine, among other things, whether the loss exhibits unusual circumstances that
warrant an in-depth review. In such cases, the IG must prepare a report in a manner consistent with
the requirements of a material loss review. The IG must semiannually report the dates when each such
review and report will be completed. If the IG determines that a loss did not involve unusual
circumstances that warrant an in-depth review, the IG is required to provide an explanation of its
determination in the report. The OIG has included its report on nonmaterial loss bank failures in this
Semiannual Report to Congress (page 24).




                                             Semiannual Report to Congress │ October 1, 2012–March 31, 2013   15
As shown in the table below, during this reporting period we issued one report on a failed state
member bank that had losses below the materiality threshold, but we determined that the losses
exhibited unusual circumstances that warranted an in-depth review.

Failed Bank Reviews Completed during the Reporting Period
                                                                                     DIF projected                     FDIC OIG
                                                 Federal             Asset size           loss              Closure   notification
                                                                                                                              a
 State member bank             Location        Reserve Bank         (in millions)     (in millions)          date        date
 Bank of Whitman              Colfax, WA       San Francisco          $548.6             $134.8         08/05/2011     09/21/11

     a. Date that our office received notification from the FDIC OIG about the projected loss to the DIF.



Review of the Failure of Bank of Whitman
OIG Report No. 2013-IE-B-002, March 22, 2013

Bank of Whitman was closed on August 5, 2011. On September 21, 2011, the FDIC estimated that
Bank of Whitman’s failure would result in a $134.8 million loss to the DIF, which did not exceed the
$200 million materiality threshold that applied at the time of notification by the FDIC OIG. While the
loss to the DIF was below the materiality threshold, we conducted an in-depth review after
determining that Bank of Whitman’s failure presented unusual circumstances because of various
questionable transactions and business practices involving senior management.

Bank of Whitman failed because of the convergence of several factors. The bank altered its traditional
agricultural lending strategy and expanded into new market areas, which resulted in rapid growth and
high commercial real estate concentrations as well as credit concentrations to individual borrowers.
Bank of Whitman’s corporate governance weaknesses allowed the bank’s senior management to
dominate the institution’s affairs and undermine the effectiveness of key control functions. Bank of
Whitman’s credit concentrations and poor credit risk management practices, along with a decline in
the local real estate market, resulted in asset quality deterioration, significant losses, and eroded
capital. At that point, management engaged in a series of practices to mask the bank’s true condition.
The escalating losses depleted earnings and left the bank in a critically undercapitalized condition,
which prompted the Washington State Department of Financial Institutions to close the bank and
appoint the FDIC as receiver on August 5, 2011.

Bank of Whitman became a state member bank in 2004, and FRB San Francisco complied with
premembership supervisory requirements. FRB San Francisco also complied with examination
frequency guidelines for the time frame we reviewed, 2005 through 2011, and conducted regular
offsite monitoring. However, our analysis of FRB San Francisco’s supervision of Bank of Whitman
revealed that FRB San Francisco identified the bank’s fundamental weaknesses during its first
examination in 2005 but did not take decisive action to resolve those weaknesses until September
2009. In our opinion, FRB San Francisco had multiple opportunities from 2005 to 2009 to take
stronger supervisory action to address the bank’s persistent deficiencies.

We recommended that the Director of BS&R review the supervisory approach for premembership
examinations and determine whether enhancements to the current approach outlined in Supervision
and Regulation Letter 11-2, Examinations of Insured Depository Institutions Prior to Membership or
Mergers into State Member Banks, are appropriate. BS&R staff acknowledged the conclusion and
lessons learned in the report and will follow up on the report’s recommendation.




16      Semiannual Report to Congress │ October 1, 2012–March 31, 2013
No Changes Recommended to Freedom of Information Act Exemption
Included in the Amended Federal Reserve Act
OIG Report No. 2013-AA-B-001, January 18, 2013

Section 1103 of the Dodd-Frank Act amends section 11 of the FRA to establish mandatory disclosure
dates for information concerning the borrowers and counterparties participating in emergency credit
facilities, discount window lending programs, and open market operations that are authorized by the
Board. Prior to these mandatory release dates, the Dodd-Frank Act exempts this information from
disclosure under FOIA. As required by the Dodd-Frank Act, we conducted a study of the impact that
this FOIA exemption has had on the public’s ability to access information about the Board’s
administration of emergency credit facilities, discount window lending operations, and open market
operations. Further, we were required by the FRA to submit a report to the Senate Committee on
Banking, Housing, and Urban Affairs and the House of Representatives Committee on Financial
Services on the findings of our study, as well as make any recommendations on whether the
exemption in section 11(s) should remain in effect.

During our evaluation, we did not find evidence that the FOIA exemption included in section 11(s) of
the amended FRA has impacted the public’s ability to access information concerning the Board’s
administration of emergency credit facilities, discount window lending programs, or open market
operations. We determined that neither the Board nor the Federal Open Market Committee has
utilized the FOIA exemption in section 11(s) of the FRA to withhold information regarding any FOIA
requests received from July 21, 2010, the date the exemption became effective, through October 31,
2012, the end of our FOIA review period. We also found that the Federal Reserve System provides a
significant amount of publicly available information about the administration of these facilities,
programs, and operations that includes statutorily mandated disclosures. Published information also
includes broad-based reporting, program administrative terms and conditions, and aggregate data, such
as weekly statistical reports and balance sheet information. In addition, we noted that if the FOIA
exemption in section 11(s) of the FRA were eliminated, the earlier release of transaction-level
information could have adverse impacts on individual financial institutions and the broader financial
markets, as well as on the effectiveness of the emergency credit facilities, discount window lending
programs, and open market operations as tools to effect monetary policy and respond to financial
crises.

Given our determination that the FOIA exemption in section 11(s) of the FRA has not impacted the
public’s ability to access information about the Board’s administration of emergency credit facilities,
discount window lending programs, or open market operations and that there is the potential for
adverse impacts with earlier releases of information, we did not recommend any change to the FOIA
exemption that Congress provided in section 11(s) of the amended FRA. The Board indicated that it
agreed with our conclusion.


Status of the Transfer of Office of Thrift Supervision Functions
OIG Report No. 2013-IE-B-003, March 27, 2013

Title III of the Dodd-Frank Act established provisions for the transfer of authorities from the Office of
Thrift Supervision (OTS) to the OCC, the FDIC, and the Board within one year after the July 21,
2010, enactment date. Title III transferred to the Board, on July 21, 2011, the functions and
rulemaking authority for consolidated supervision of savings and loan holding companies and their
nondepository subsidiaries. The Dodd-Frank Act required that, within 180 days after its enactment,
the OTS, the OCC, the FDIC, and the Board jointly submit a plan—the Joint Implementation Plan—to
Congress and the IGs of Treasury, the FDIC, and the Board that detailed the steps each agency would
take to implement the title III provisions. The Joint Implementation Plan was submitted to Congress
and the IGs on January 25, 2011. The Dodd-Frank Act also required the IGs to determine whether the
implementation plan conformed to the title III provisions. On March 28, 2011, the IGs jointly issued a


                                             Semiannual Report to Congress │ October 1, 2012–March 31, 2013   17
report concluding that the actions described in the Joint Implementation Plan generally conformed to
the provisions of title III.1

Section 327 of title III requires the IGs to report on the status of the implementation of the Joint
Implementation Plan every six months. The IGs have issued four status reports to date: the first three
on September 28, 2011; March 21, 2012; and September 28, 2012; and, during this reporting period,
the fourth on March 27, 2013. These joint reports, all of which were titled Status of the Transfer of
Office of Thrift Supervision Functions, concluded that the Board, the FDIC, the OCC, and the OTS
have substantially implemented actions to transfer OTS functions, employees, funds, and property to
the Board, the FDIC, and the OCC, as appropriate. All four reports noted that the Board was still
implementing certain aspects of the plan. The March 27, 2013, report noted that the rulemaking for
the collection of supervisory assessments by the Board was ongoing. In its written response to the
March 27, 2013, report, the Board stated that it is working diligently to complete the proposed
rulemaking for the collection of supervisory assessments and expects the proposal to be issued by the
end of the first quarter of this year or early in the second quarter.


Follow-up Inspection and Evaluation Work at the Board
Follow-up on the Summary Analysis of Failed Bank Reviews and the Material
Loss Review of the Bank of the Commonwealth
We completed a follow-up review of the actions taken on open recommendations in our material loss
and in-depth reviews from 2011 through 2012. There was one material loss review and a related
report containing open recommendations: (1) Summary Analysis of Failed Bank Reviews and
(2) Material Loss Review of the Bank of the Commonwealth. The summary analysis report had three
open recommendations, and the Bank of the Commonwealth report had four open recommendations.

Based on our follow-up work, we determined that sufficient action had been taken to close two of the
three summary analysis recommendations, and three of the four Bank of the Commonwealth
recommendations. For the summary analysis recommendations, we found that BS&R (1) conducted
training for examiners using recent failures as case studies and (2) modified examination procedures
related to compensation. As a result of these BS&R actions, we closed recommendations 1 and 2 from
the summary analysis report. For the Bank of the Commonwealth recommendations, we found that
(1) BS&R implemented improved tracking and reporting of Matters Requiring Attention and Matters
Requiring Immediate Attention, which provides for an effective supervisory response for an institution
that requires an enforcement action; (2) the Federal Reserve Bank of Richmond conducted training
with staff regarding conflicts of interest; and (3) BS&R issued Advisory Letter 13-08, which clarifies
procedures that Reserve Banks should follow in a case that requires a Suspicious Activity Report to be
filed. As a result of these actions, we closed recommendations 2, 3, and 4 from the Bank of the
Commonwealth report.

BS&R has initiated actions to address the remaining open recommendations. We expect to continue
our review of follow-up actions during the next semiannual reporting period.




1.   However, in response to a finding in the joint IGs’ report, the Joint Implementation Plan was amended in April 2011 to
     expand on the protections for transferred OTS employees.



18     Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Follow-up on the Inspection of the Protective Services Unit
We completed a follow-up review of the OIG recommendations made in the August 2012 Inspection
of the Board’s Protective Services Unit. In that report, we identified six recommendations to improve
internal controls in the Protective Services Unit’s processes. As part of our follow-up work, we
interviewed Protective Services Unit staff and reviewed pertinent documentation. Based on these
efforts, we have determined that sufficient action has been taken to close all six recommendations.


Ongoing Inspection and Evaluation Work at the Board
In-depth Review of the Failure of Waccamaw Bank
On June 8, 2012, the North Carolina Office of the Commissioner of Banks closed Waccamaw Bank
and appointed the FDIC as receiver. According to the FDIC’s press release, as of March 31, 2012,
Waccamaw Bank had approximately $533.1 million in total assets and $472.7 million in total deposits.
On June 8, 2012, the FDIC estimated that the cost of Waccamaw Bank’s closure to the DIF will be
$51.1 million, which did not meet the materiality threshold as defined under section 38(k) of the
FDI Act. Based on the results of our failed bank review, we determined that the failure of Waccamaw
Bank was due to circumstances that have been covered in past OIG reports. However, our failed bank
review also identified three unusual circumstances that warrant an in-depth review of Waccamaw
Bank: (1) Waccamaw Bank appears to have misinformed regulators about key aspects of an asset
swap transaction that significantly changed its risk profile and financial condition; (2) Waccamaw
Bank initiated a series of appeals related to the examiners’ recommended accounting treatment of a
transaction, which ultimately reached the highest level of appellate review by a Board Governor; and
(3) there were unique circumstances surrounding the retirement of Waccamaw Bank’s former
president and chief executive officer (CEO). As a result, we initiated an in-depth review that focuses
on these three unusual circumstances. We plan to issue our report by June 2013.


Review of the Federal Reserve’s Supervisory Activities Related to the Recent
Loss at JPMorgan Chase & Co.’s Chief Investment Office
In May 2012, we initiated a scoping review of the Federal Reserve’s supervisory activities related to
the multibillion-dollar loss at JPMC’s Chief Investment Office. We completed our scoping review
and subsequently initiated evaluation work in July 2012. Our objectives for this evaluation are to
(1) assess the effectiveness of the Board’s and the Federal Reserve Bank of New York’s consolidated
and other supervisory activities regarding JPMC’s Chief Investment Office and (2) identify lessons
learned for enhancing future supervisory activities.


Evaluation of the Board’s Policies, Procedures, and Practices Associated with
Agency-sponsored Conferences
In May 2012, the OIG initiated an evaluation of the Board’s conference-related activities. The
evaluation began shortly after the General Services Administration’s OIG issued a report on a
conference held by that agency outside Las Vegas that noted multiple violations of the Federal Travel
Regulation. The objectives of our evaluation focus on determining the controls, policies, procedures,
and practices associated with conferences. The review is limited to conference activities sponsored by
the Board. We plan to issue our report during the next semiannual reporting period.




                                            Semiannual Report to Congress │ October 1, 2012–March 31, 2013   19
Evaluation of the Board’s Preparedness for Unexpected Emergency Events
We completed our fieldwork related to the Board’s emergency preparedness for unexpected
emergency events. The objective of this review was to evaluate the Board’s policies and procedures
for responding to unexpected emergency events. The Board has developed a crisis management
structure that serves as a basic framework and provides guidance to employees across a number of
scenarios while allowing for flexibility depending on the specific nature of the emergency. However,
the emergency response to the August 2011 earthquake identified a number of potential
communication problems and a need to enhance coordination with neighboring federal agencies. Our
review will evaluate the readiness of the Board to respond to similar events, including actions the
Board has taken from lessons learned during the August 2011 emergency and its communication to
employees since this incident. We expect to complete our evaluation and issue our report during the
next semiannual reporting period.


Inspection of the Board’s Law Enforcement Unit
We initiated an inspection of the Board’s Law Enforcement Unit to assess compliance with the
Uniform Regulations for Federal Reserve Law Enforcement Officers, Board and Law Enforcement
Unit internal policies and procedures, applicable laws, and law enforcement best practices. The USA
Patriot Act of 2001 granted the Board certain federal law enforcement authorities. To implement these
authorities, the Board promulgated the Uniform Regulations for Federal Reserve Law Enforcement
Officers in 2002. The regulations designated the Board’s OIG as the external oversight function
responsible for reviewing and evaluating the Board’s law enforcement programs and operations. We
are performing this inspection of the Board’s Law Enforcement Unit as part of our external oversight
responsibilities. We will coordinate the development of our inspection methodology with the Board’s
Division of Reserve Bank Operations and Payment Systems, which serves as the external oversight
function for the Reserve Banks’ law enforcement program. We plan to issue our report during the
next semiannual reporting period.


Evaluation of the Board’s Adherence to the Small Entity Compliance Guide
Requirements in the Small Business Regulatory Enforcement Fairness Act of
1996
We continued our evaluation of the Board’s adherence to the small entity compliance guide
requirements contained in the Small Business Regulatory Enforcement Fairness Act of 1996, as
amended. On January 26, 2011, the OIG Hotline received a complaint concerning the Board’s
proposed rule related to loan originator compensation. The complaint outlined several concerns
related to the Board’s rulemaking process for the proposed rule. One of the concerns the complainant
discussed with the Board’s “regulatory staff” was that the Board did not adequately meet the small
entity compliance guide requirements contained in the Small Business Regulatory Enforcement
Fairness Act of 1996. We initiated this evaluation to assess the Board’s compliance with applicable
requirements. We anticipate issuing our report before the close of the next semiannual reporting
period.


Response to a Congressional Request Regarding the Board’s Compliance
with Federal Requirements for Addressing Climate Change
During this reporting period, we received a letter from the co-chairs of the Bicameral Taskforce on
Climate Change regarding the actions taken by the Board in response to climate change. In the letter,
the task force requested the identification of existing requirements in legislation, regulation, executive


20    Semiannual Report to Congress │ October 1, 2012–March 31, 2013
order, and other directives that apply to the Board and our assessment of how the Board is meeting
these requirements. The task force also requested the identification of the Board’s authorities to
reduce emissions of heat-trapping pollution and to make the nation more resilient to the effects of
climate change. We requested that the Board’s General Counsel determine the federal requirements
that apply to both components of the request, and during the next reporting period, we plan to assess
the Board’s response and any actions the agency has taken in response to climate change.


Evaluation of the Board’s Corporate Services
We initiated an evaluation of the Board’s corporate services across all divisions, including Mail
Services, Motor Transport, and Print Shop services. The objectives for this evaluation are to assess
the extent to which Board staff use corporate services and to identify potential economies and
efficiencies. In the Board’s strategic framework for the next three years, the sixth strategic theme is to
establish a cost-reduction approach for Board operations that maintains an effective and efficient use
of financial resources. Accordingly, Board divisions, such as the Management Division, have linked
their objectives to the strategic framework and are working to identify opportunities for potential cost
savings and to improve operational efficiencies. We expect to complete our evaluation during the next
semiannual reporting period.


Audit of the Board’s Monitoring of Mortgage Servicers
We began an audit of the Board’s efforts to monitor and ensure compliance with (1) enforcement
orders against mortgage servicers issued in April 2011 and amended in February 2013 and
(2) enforcement orders against bank holding companies issued in April 2011, September 2011, and
April 2012, and amended in February 2013. Our audit will focus on evaluating the Board’s oversight
to ensure the institutions for which it has regulatory responsibility implement the terms and conditions
of the enforcement orders. Under the amended orders, the Board, along with the OCC, required the
mortgage servicers to establish a fund to provide borrowers, who were in foreclosure in 2009 and
2010, $3.6 billion in compensation, ranging from a few hundred dollars up to $125,000 depending on
the possible servicer error. Additionally, the servicers are required to provide $5.7 billion in other
foreclosure prevention assistance, such as loan modifications.


Completed Inspection and Evaluation Work at the CFPB
CFPB Contract Solicitation and Selection Processes Facilitate FAR
Compliance, but Opportunities Exist to Strengthen Internal Controls
OIG Report No. 2013-IE-C-004, March 28, 2013

In our evaluation of the CFPB’s contract solicitation and selection process, we reviewed certain CFPB
procurement activities to assess the internal controls of the CFPB’s Office of Procurement. Our
objective was to determine whether the CFPB established contract solicitation and selection processes
that facilitated compliance with applicable rules established by the FAR.

We found that the CFPB established internal processes and procedures to facilitate FAR compliance
related to contract solicitation and selection activities; however, opportunities exist to strengthen
internal controls. We found that the CFPB’s processes and practices were compliant with particular
FAR requirements, such as performing acquisition planning and market research, providing
opportunities for companies to compete for CFPB contracts, and conducting documented evaluations
of contractor selections. Nonetheless, at the time of our review, we could not determine from the
documentation provided whether the CFPB’s competition advocate was fulfilling each of the


                                              Semiannual Report to Congress │ October 1, 2012–March 31, 2013   21
responsibilities described in the FAR. Further, at the time of our review we found that the CFPB had
not yet finalized certain CFPB policies and procedures that would facilitate FAR compliance in
solicitation and selection activities. After we communicated our initial observations to the CFPB, the
Office of Procurement issued a final revised Procurement Review Threshold Policy, dated October 23,
2012, and a finalized Policy for Acquisition Planning, dated October 25, 2012.

We also found that the CFPB had expedited contracts in some instances, based on urgent requests
from program officials; however, we could not determine the reason for the urgency. Accordingly,
opportunities exist to strengthen contract file documentation when the CFPB expedites the
procurement process in response to urgent requests.

We recommended that the Assistant Director for Procurement develop an internal policy describing
how the CFPB implements the FAR requirements pertaining to the agency’s competition advocate;
finalize, disseminate, and implement its Small Business Review Form to facilitate FAR compliance
related to small business participation; and enhance CFPB procedures related to the documentation of
urgent procurement requests. The CFPB concurred with our recommendations.


Ongoing Inspection and Evaluation Work at the CFPB
Evaluation of the CFPB’s Annual Budget Process
We completed the fieldwork in our assessment of the CFPB’s annual budget process. As an
independent bureau within the Federal Reserve System, the CFPB is funded principally by the Federal
Reserve System in amounts determined by the CFPB Director as necessary to carry out the agency’s
operations, subject to limits established in the Dodd-Frank Act. The CFPB prepared and publicly
issued budget documents for fiscal years 2012 and 2013, which contained budgeted amounts of
$356 million and $448 million, respectively. Our objective for this review is to evaluate the extent to
which the CFPB’s budget process facilitated the achievement of the agency’s goals and performance
objectives and demonstrated the agency’s commitment to transparency. We plan to issue the results of
our evaluation during the next semiannual reporting period.


Evaluation of the CFPB’s Policies, Procedures, and Practices Associated with
Agency-sponsored Conferences
In May 2012, we initiated an evaluation of the CFPB’s conference-related activities. The evaluation
began shortly after the General Services Administration’s OIG issued a report on a conference held by
that agency outside Las Vegas that noted multiple violations of the Federal Travel Regulation. The
objectives of our evaluation will focus on determining the controls, policies, procedures, and practices
associated with conferences. This review will cover both agency-sponsored and nonsponsored
conferences. We plan to issue our report during the next semiannual reporting period.


Evaluation of the CFPB’s Integration of Enforcement Attorneys into
Examinations

We initiated an evaluation of the CFPB’s integration of enforcement attorneys into its examinations of
banking and nonbanking institutions’ compliance with applicable consumer protection laws and
regulations. Our objectives for this evaluation are to assess (1) the potential risks associated with this
approach to conducting examinations and (2) the effectiveness of any safeguards that the CFPB has



22    Semiannual Report to Congress │ October 1, 2012–March 31, 2013
adopted to mitigate the potential risks associated with this examination approach. We expect to
complete our review and issue our report during the next semiannual reporting period.


Evaluation of the CFPB’s Supervision Program
We initiated an evaluation of the CFPB’s supervision program for large depository institutions and
nondepository consumer financial service companies. Based on the authority granted by the Dodd-
Frank Act, the CFPB began examinations of large depository institutions on July 21, 2011, and of
nondepository consumer financial service companies on January 5, 2012. The objectives of our
evaluation are to (1) review key program elements, including policies and procedures, examination
guidance, and controls to promote consistent and timely reporting; (2) assess the approach for staffing
examinations; and (3) assess the training program for examination staff. We are in the process of
completing our scope development efforts and plan to issue our report before the end of the year.


Evaluation of the CFPB’s Compliance with Section 1100G
We initiated an evaluation to assess the CFPB’s compliance with section 1100G requirements of the
Dodd-Frank Act. Section 1100G amends the Small Business Regulatory Enforcement Fairness Act of
1996 and the Regulatory Flexibility Act to require the CFPB to assess a proposed rule’s economic
impact and cost of credit for small entities. Among other requirements, the CFPB must perform a
regulatory flexibility analysis that includes a description of (1) any projected increase in the cost of
credit for small entities, (2) any significant alternatives to the proposed rule that accomplish the stated
objectives of applicable statutes and that minimize any increase in the cost of credit for small entities,
and (3) advice and recommendations of representatives of small entities relating to issues associated
with the projected increases or alternatives. We expect to complete this project and issue our report
during the next semiannual reporting period.


Evaluation of the CFPB’s Hiring Process
We initiated an evaluation of the CFPB’s hiring process. The objective of our evaluation is to assess
the efficiency and effectiveness of three CFPB recruitment and selection subprocesses: (1) assessment
and vacancy announcement creation, (2) hiring authority and vacancy announcement posting, and
(3) evaluation and selection of candidates. We will also assess the agency’s compliance with
applicable laws, regulations, and policies and its administration of recruitment and selection incentives
to recruit new employees. We are in the process of completing our fieldwork, and we plan to issue our
report during the next semiannual reporting period.


Response to a Congressional Request Regarding the CFPB’s Compliance
with Federal Requirements for Addressing Climate Change
During this reporting period, we received a letter from the co-chairs of the Bicameral Taskforce on
Climate Change regarding actions taken in response to climate change by the agencies that we
oversee. As the independent oversight entity for the CFPB, we will prepare a response for the CFPB.
We requested that the CFPB’s General Counsel determine the federal requirements that apply as well
as the CFPB’s authorities to reduce emissions of heat-trapping pollution. During the next reporting
period, we plan to assess the CFPB’s response and any actions the agency has taken in response
climate change.




                                              Semiannual Report to Congress │ October 1, 2012–March 31, 2013   23
Information on Nonmaterial Losses to the
Deposit Insurance Fund

The FDI Act, as amended by the Dodd-Frank Act, requires the IG of the appropriate federal banking
agency to report, on a semiannual basis, certain information on financial institutions that incurred
nonmaterial losses to the DIF and that failed during the respective six-month period.

When bank failures result in nonmaterial losses to the DIF, the IG is required to determine (1) the
grounds identified by the federal banking agency or the state bank supervisor for appointing the FDIC
as receiver2 and (2) whether the losses to the DIF present unusual circumstances that would warrant an
in-depth review. If an in-depth review is not warranted, the IG is required to provide an explanation of
its determination.

We review the state member bank failures to determine whether the resulting losses to the DIF
exhibited unusual circumstances that would warrant an in-depth review. In general, we consider a loss
to the DIF to present unusual circumstances if the conditions associated with the bank’s deterioration,
ultimate closure, and supervision were not addressed in any of our prior bank failure reports or
involved potential fraudulent activity. To make this determination, we analyze key data from the five-
year period preceding the bank’s closure. These data generally comprise Federal Reserve Bank and
state examination schedules; Reports of Examination, including CAMELS ratings3 and financial data;
informal and formal enforcement actions and other supervisory activities, such as visitations; and
prompt corrective action determinations.

During this semiannual period, there were no failed state member banks with losses to the DIF that did
not meet the materiality threshold requiring an OIG review, which currently is a loss in excess of
$150.0 million.




2.	 Typically, the state closes state member banks and appoints the FDIC as receiver.
3.	 The CAMELS acronym represents six components: capital adequacy, asset quality, management practices, earnings
    performance, liquidity position, and sensitivity to market risk.



24    Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Investigations


The OIG’s Investigations office conducts criminal, civil, and administrative investigations related to
Board and CFPB programs and operations. The OIG operates under statutory law enforcement
authority granted by the U.S. Attorney General, which vests our special agents with the authority to
carry firearms, make arrests without a warrant, seek and execute search and arrest warrants, and seize
evidence. OIG investigations are conducted in compliance with CIGIE’s Quality Standards for
Investigations.


Investigative Activities
During this reporting period, we opened 6 cases and ended the period with 54 investigations in
progress. Due to the sensitivity of these investigations, we only report on activities that have resulted
in criminal, civil, or administrative action. The following summaries highlight our significant
investigative activity during this semiannual reporting period.


Business Owner Sentenced for Bank Fraud
On March 14, 2013, the former owner of an Illinois agricultural business was sentenced to 14 months
in prison and 5 years’ supervised release and was ordered to pay over $9.8 million in restitution. As
previously reported, on September 29, 2011, the former owner was indicted on charges that he
overstated the accounts receivable of his business to obtain a $10 million line of credit. The OIG
initiated this investigation after receiving information alleging loan fraud at Peoples Bank and Trust, a
Board-regulated institution.

According to the indictment, from 2006 to June 2008, the former owner obtained a substantial amount
of financing from Corn Belt Bank. In May 2008, when Corn Belt Bank was no longer able to provide
sufficient financial support, the former owner arranged for financing with Peoples Bank and Trust,
which included the $10 million line of credit. The purposes of the loan included financing the
operations of the business and paying off a prior loan from Corn Belt Bank. Corn Belt Bank
purchased a 20 percent participation in the loan. In February 2009, Corn Belt Bank was placed in
receivership.

The indictment alleged that the former owner provided false information to Peoples Bank and Trust to
secure the $10 million line of credit. As part of the loan process, the former owner provided
fraudulent reports regarding the financial status of his business and the status of collateral, including
his accounts receivable, so that Peoples Bank and Trust would approve and fund the $10 million line
of credit. The indictment further alleged that after the line of credit was approved and funded, the
former owner continued to provide false information to Peoples Bank and Trust. Ultimately, the
business defaulted on the loan, resulting in a loss of most of the $10 million Peoples Bank and Trust
loaned to the business.

We conducted this investigation with the Federal Bureau of Investigation (FBI) and the FDIC OIG.
The case was prosecuted by the U.S. Attorney’s Office for the Eastern District of Missouri.




                                              Semiannual Report to Congress │ October 1, 2012–March 31, 2013   25
Real Estate Developer Indicted for Conspiracy to Commit Bank Fraud, Money
Laundering, and Making a False Statement to a Financial Institution
On January 23, 2013, a federal grand jury indicted a Wilmington, Delaware, real estate developer on
numerous bank fraud–related charges. The developer was charged with one count of conspiracy to
commit bank fraud and seven counts of making a false statement to a financial institution. The
indictment also charged the developer with one count of money laundering in violation of
18 U.S.C. § 1957.

According to the indictment, the developer obtained financing in excess of $37 million from
Wilmington Trust Company, a subsidiary of Wilmington Trust Corporation, a Board-regulated bank
holding company, in connection with three development projects. In March 2011, prior to its
acquisition by M&T Bank, Wilmington Trust sold the debt associated with these as well as other
projects involving the developer. Wilmington Trust’s incurred losses on these three projects alone
exceeded $26 million.

The indictment further alleged that in 2007 and 2008, in connection with the three development
projects, the developer and uncharged co-conspirators submitted false draw requests for payment from
the bank and requested and received advanced funds in violation of the terms of the loan agreements
with Wilmington Trust. According to the indictment, the developer requested and received $150,000
in funds from Wilmington Trust that he represented to be for A/E costs, but instead used the money to
finance acquisition of a personal interest in a development in the Bahamas.

This is a joint investigation with the FBI, the Internal Revenue Service (IRS) Criminal Investigation,
SIGTARP, and the U.S. Attorney’s Office for the District of Delaware.


Former Senior Executives of the Bank of the Commonwealth and a Local Real
Estate Developer Indicted for Bank Fraud
Previously, 12 individuals associated with the Bank of the Commonwealth investigation were charged
in the Eastern District of Virginia with bank fraud, conspiracy to commit bank fraud, false entries,
false statements to a financial institution, and misapplication of bank funds. To date, 7 defendants
have entered guilty pleas to the charges: 3 of the 7 defendants have been sentenced to a total of 308
months in prison and $32 million in restitution, and sentencing for the remaining 4 is scheduled for
May 2013. The trial for the 5 defendants who did not enter guilty pleas began March 19, 2013.

According to the superseding indictment, in 2006 executives at the Bank of the Commonwealth began
an aggressive expansion beyond its traditional lending focus in Norfolk and Virginia Beach to include
opening branches in northeastern North Carolina and the Outer Banks. By December 2009, the bank’s
assets reached $1.3 billion largely through an increase in brokered deposits. The indictment alleges
that many of the Bank of the Commonwealth’s loans were funded and administered without regard to
industry standards and their own lending policy and internal controls. By the end of 2008, the volume
of troubled loans and foreclosed real estate soared and negatively impacted the bank’s capital. From
2008 through 2011, the Bank of the Commonwealth executives allegedly masked the bank’s true
financial condition out of fear that the bank’s declining state would negatively impact investor and
customer confidence. They were also allegedly concerned that regulators would downgrade the bank
and restrict it from accepting brokered deposits.

To hide the bank’s troubled assets, executives allegedly overdrew demand deposit accounts to make
loan payments, used funds from related entities (without authorization from the borrower) to make
loan payments, used change-in-terms agreements to make loans appear current, and extended new
loans or additional principal on existing loans to cover payment shortfalls.



26   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
In addition, the indictment alleges that bank executives provided preferential financing to troubled
borrowers to purchase bank-owned properties. These troubled borrowers were already having
difficulty making payments on their existing loans; however, the financing allowed the bank to
convert a nonperforming asset into a performing asset. In addition, the troubled borrowers obtained
cash at closing to make payments on their other loans at the bank or for their own personal purposes.
The indictment also alleges that troubled borrowers purchased or attempted to purchase property
owned by bank insiders and that many of these real estate loans were fraudulently funded by the bank.

The Bank of the Commonwealth was closed by the regulators in 2011, and the FDIC estimates the loss
to the DIF to be $268 million. This investigation is being worked jointly with the FBI, the FDIC OIG,
the IRS Criminal Investigation, and SIGTARP. The case is being prosecuted by the U.S. Attorney’s
Office for the Eastern District of Virginia.


Former Bank President and Other Officers Indicted in Massive Fraud That
Preceded the Collapse of First National Bank
On January 11, 2013, the former president and six other officers of First National Bank of
Savannah were indicted by a federal grand jury, accused of defrauding First National Bank of
Savannah and other banks out of millions of dollars. The long-running scheme allegedly contributed
to the failure of First National Bank of Savannah in 2010, which would result in a loss to the DIF of
over $90 million. The OIG initiated this investigation based on a referral by the FDIC OIG. First
National Bank of Savannah was a wholly owned subsidiary of First National Corporation, a Board-
regulated bank holding company.

According to the indictment, as First National Bank of Savannah’s financial condition began to
deteriorate, the defendants conspired to hide from the bank, members of the bank’s board of directors,
and federal regulators millions of dollars in nonperforming loans. The defendants accomplished this
by unlawfully lending money to unqualified nominees to make interest and other payments on
nonperforming loans. In addition, the defendants enticed others to take over nonperforming loans with
hidden promises, side deals, and other terms unfavorable to First National Bank of Savannah. The
defendants also recruited other banks to fund nonperforming loans based on fraudulent
misrepresentations about the quality of the loans. The defendants, in furtherance of their scheme,
allegedly falsified and fabricated numerous bank documents and records.

This case is the result of a joint investigation conducted with the FDIC OIG, SIGTARP, and the U.S.
Secret Service. The case is being prosecuted by the U.S. Attorney’s Office for the Southern District of
Georgia.


Five Individuals Indicted in Connection with Bank Fraud, Money Laundering,
and Receipt of Stolen Property
On November 13, 2012, five individuals were indicted by a federal grand jury on several counts,
including conspiracy to receive stolen property, structuring financial transactions to evade reporting
requirements, and false statements to a financial institution.

As previously reported, the OIG initiated this investigation based on a request from the U.S.
Attorney’s Office, Charleston, South Carolina, regarding leads developed during a prior OIG
investigation that resulted in the arrests of several individuals who were involved in bank fraud,
money laundering, operating unlicensed money service businesses, and conspiracy in South Carolina
and North Carolina. On November 30, 2011, agents from the OIG and the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF) executed simultaneous search and arrest warrants in
Charleston and Columbia, South Carolina, and in Charlotte, North Carolina, based on an indictment


                                             Semiannual Report to Congress │ October 1, 2012–March 31, 2013   27
filed in the Western District of North Carolina. The OIG’s investigation was based on money
laundering and bank and loan application fraud by these individuals and was merged into an ongoing
ATF undercover investigation that involved the cash sale of over $7.5 million in “stolen cigarettes” to
the same defendants from September 2009 to September 2011. During the course of their
investigation, ATF identified several individuals believed to be financial contributors to the
undercover sales. Several of the meetings with the defendants occurred at various Discount Stores
located in South Carolina that are owned or operated by the individuals identified above.

This is a joint investigation with the ATF, the IRS Criminal Investigation, the Charlotte Mecklenburg
Police Department, and the Treasury OIG. The case is being prosecuted by the U.S. Attorney’s Office
for South Carolina.


Chief Financial Officer Indicted for Bank Fraud
On March 6, 2013, an individual who was the chief financial officer of a building supply company and
a member of Blue Jay Properties, LLC, was indicted by a federal grand jury on one count of bank
fraud and one count of money laundering. The OIG initiated this investigation in July 2012 based on
information received from the FDIC OIG that the individual provided false information to University
National Bank of Lawrence, Kansas, to support a $15.2 million construction loan to Blue Jay
Properties, LLC, to fund an apartment building project in Junction City, Kansas.

According to the indictment, the individual and other members of Blue Jay Properties, LLC, needed to
provide over $1.2 million in collateral to University National Bank as part of the terms of the loan. To
satisfy the bank’s collateral requirements, the chief financial officer allegedly wrote a letter to
University National Bank falsely representing that all the lumber for the project, pledged as collateral
on the loan, was prepaid in full and being held by the building supply company. The indictment also
alleges that as part of the scheme, the individual made a wire transfer of the money obtained through
the bank fraud against University National Bank.

This is a joint investigation with the IRS Criminal Investigation, the FDIC OIG, and the U.S.
Department of Labor. This case is being prosecuted by the U.S. Attorney’s Office for the District of
Kansas.




28   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Summary Statistics on Investigations during the Reporting Perioda
                                         Investigative actions                                              Number
 Investigative caseload
 Investigations open at end of previous reporting period                                                       48
 Investigations opened during reporting period                                                                 6
 Investigations closed during reporting period                                                                 0
 Total investigations open at end of reporting period                                                          54
 Investigative results for reporting period
 Referred to prosecutor                                                                                        0
 Joint investigations                                                                                          50
 Referred for audit                                                                                            0
 Referred for administrative action                                                                            0
 Oral and/or written reprimands                                                                                0
 Terminations of employment                                                                                    0
 Arrests                                                                                                       2
 Suspensions                                                                                                   0
 Debarments                                                                                                    0
 Indictments                                                                                                   14
 Criminal information                                                                                          0
 Convictions                                                                                                   2
 Monetary recoveries                                                                                           $0
 Civil actions (fines and restitution)                                                                         $0
 Criminal fines, restitution, and forfeitures                                                             $9,862,086
   a. Some of the investigative numbers may include data also captured by other OIGs.




Hotline Activities
Individuals are encouraged to report fraud, waste, abuse, or mismanagement related to the programs or
operations of the Board or the CFPB by contacting the OIG Hotline. Hotline staff can be reached via
mail, telephone, fax, or e-mail. The Hotline is staffed by OIG analysts who review all incoming
communications, research and analyze the issues raised, and determine how to best address the
complaint. During this reporting period, the Hotline received 423 complaints.

The OIG Hotline continued to receive a significant number of complaints from individuals seeking
information about or wanting to file noncriminal consumer complaints against financial institutions.
Hotline staff analyzes these complaints and typically refers the complainant to the consumer group of
the appropriate federal regulator for the institution involved, such as the OCC Customer Assistance
Group. Additionally, CFPB Consumer Response accepts complaints from consumers regarding credit
cards, student loans, mortgages, and other consumer financial products and services. As appropriate,
Hotline staff has referred individuals to CFPB Consumer Response for assistance.

The OIG continued to receive a significant number of complaints involving suspicious solicitations
invoking the name of the Federal Reserve or the Chairman of the Board of Governors. Hotline staff
continues to advise all individuals that these “spam” e-mails are solicitations that attempt to obtain the
personal and/or financial information of the recipient and that neither the Board nor the Federal
Reserve Banks endorse or have any involvement in them. As appropriate, the OIG may investigate
these complaints.




                                                           Semiannual Report to Congress │ October 1, 2012–March 31, 2013   29
During this reporting period, as part of its outreach efforts, the OIG distributed Hotline posters to all
Board and CFPB divisions, as well as Hotline magnets to all Board and CFPB employees. OIG staff
also continues to present information about the OIG and its Hotline to new employees of the Board
and the CFPB at their respective orientation sessions.

Summary Statistics on Hotline Activities during the Reporting Period
                                     Hotline complaints                                  Number
 Complaints pending from previous reporting period                                           6
 Complaints received during reporting period                                                423
 Total complaints for reporting period                                                      429
 Complaints resolved during reporting period                                                413
 Complaints pending                                                                         16




30    Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Legal Services


The Legal Services program serves as the independent legal counsel to the IG and the OIG staff. The
Legal Services staff provides comprehensive legal advice, research, counseling, analysis, and
representation in support of OIG audits, investigations, inspections, evaluations, and other
professional, management, and administrative functions. This work provides the legal basis for the
conclusions, findings, and recommendations contained within OIG reports. Moreover, Legal Services
keeps the IG and the OIG staff aware of recent legal developments that may affect the activities of the
OIG, the Board, and the CFPB.

In accordance with section 4(a)(2) of the IG Act, the Legal Services staff conducts an independent
review of newly enacted and proposed legislation and regulations to determine their potential effect on
the economy and efficiency of the Board’s and the CFPB’s programs and operations. During this
reporting period, Legal Services reviewed 26 legislative and 4 regulatory items.




                                             Semiannual Report to Congress │ October 1, 2012–March 31, 2013   31
Communications and Coordination


The OIG’s primary mission is to enhance the economy, efficiency, and effectiveness of Board and
CFPB programs and operations, and we coordinate externally and work internally to achieve our goals
and objectives. Externally, we regularly coordinate with and provide information to Congress and
congressional staff. We also are active members of the broader IG professional community and
promote collaboration on shared concerns. Internally, we consistently strive to enhance and maximize
efficiency and transparency in our infrastructure and day-to-day operations. Within the Board, the
CFPB, and the Federal Reserve System, we continue to provide information about the OIG’s roles and
responsibilities. In addition, we participate in an advisory capacity on various Board work groups.
Highlights of these activities follow.


Congressional Coordination and Testimony
The OIG communicates and coordinates with various congressional committees on issues of mutual
interest. During the reporting period, we provided 12 responses to congressional members and staff
concerning the Board and the CFPB.


Council of Inspectors General on Financial Oversight
Consistent with the Dodd-Frank Act, CIGFO is required to meet at least quarterly to facilitate the
sharing of information among the IGs and to discuss the ongoing work of each IG, with a focus on
concerns that may apply to the broader financial sector and ways to improve financial oversight.
During this reporting period, CIGFO met on December 11, 2012, and March 28, 2013. The Dodd-
Frank Act authorizes CIGFO, by a majority vote, to convene a working group to evaluate the
effectiveness and internal operations of FSOC. As discussed on pages 11 and 14, in 2013 CIGFO
convened a working group to examine the rules, procedures, and practices established by FSOC and
its member agencies to designate FMUs as systemically important and therefore subject to the
requirements of title VIII of the Dodd-Frank Act. In addition, the working group made inquiries
regarding FSOC’s processes to designate payment, clearing, and settlement activities conducted by
financial institutions as systemically important. In addition, CIGFO is required to annually issue a
report that highlights the IGs’ concerns and recommendations, as well as issues that may apply to the
broader financial sector. CIGFO will issue its third annual report in July 2013.


Council of the Inspectors General on Integrity and Efficiency
and IG Community Involvement
The IG serves as a member of CIGIE, which provides a forum for IGs from various government
agencies to discuss government-wide issues and shared concerns. Collectively, the members of CIGIE
work toward improving government programs and operations. The IG also serves as a member of
CIGIE’s Legislation Committee and Inspection and Evaluation Committee and leads the Information
Technology Subcommittee of the Legislation Committee. The Legislation Committee is the central
point of information regarding legislative initiatives and congressional activities that may affect the



32   Semiannual Report to Congress │ October 1, 2012–March 31, 2013
community, such as proposed cybersecurity legislation that was reviewed during the reporting period.
The Inspection and Evaluation Committee provides leadership for the inspection and evaluation
community’s efforts to improve agency program effectiveness by maintaining professional standards,
leading the development of protocols for reviewing management issues that cut across departments
and agencies, promoting the use of advanced program evaluation techniques, and fostering awareness
of evaluation and inspection practices in OIGs.

The Associate IG for Legal Services serves as Chair of the Council of Counsels to the IG, and Legal
Services staff attorneys are members of the council. In addition, the Associate IG for Audits and
Attestations serves as chair of the IT Committee of the Federal Audit Executive Council and works
with audit staff throughout the IG community on common information technology audit issues.


Financial Regulatory Coordination
To foster cooperation on issues of mutual interest, including issues related to the current financial
crisis, the IG communicates periodically with the IGs from other federal financial regulatory agencies:
the FDIC, Treasury, the National Credit Union Administration, the Securities and Exchange
Commission, the Farm Credit Administration, the Commodity Futures Trading Commission, the
Pension Benefit Guaranty Corporation, the Export-Import Bank, and the Federal Housing Finance
Agency. In addition, the Associate IG for Audits and Attestations and the Associate IG for
Inspections and Evaluations meet with their financial regulatory agency OIG counterparts to discuss
various topics, including bank failure material loss review best practices, annual plans, and ongoing
projects. We also coordinate with the Government Accountability Office regarding financial
regulatory and other related issues.




                                            Semiannual Report to Congress │ October 1, 2012–March 31, 2013   33
Appendixes


Appendix 1a
Audit, Inspection, and Evaluation Reports Issued to the Board with Questioned Costs during
the Reporting Perioda
                                          Reports                                                 Number             Dollar value
 For which no management decision had been made by the commencement of the                            0                    $0
 reporting period
 That were issued during the reporting period                                                         0                    $0
 For which a management decision was made during the reporting period                                 0                    $0
      (i) dollar value of recommendations that were agreed to by management                           0                    $0
      (ii) dollar value of recommendations that were not agreed to by management                      0                    $0
 For which no management decision had been made by the end of the reporting                           0                    $0
 period
 For which no management decision was made within six months of issuance                              0                    $0
     a. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on program
        effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated with their
        implementation typically is not readily quantifiable.


Appendix 1b
Audit, Inspection, and Evaluation Reports Issued to the CFPB with Questioned Costs during
the Reporting Perioda
                                          Reports                                                 Number             Dollar value
 For which no management decision had been made by the commencement of the                            0                    $0
 reporting period
 That were issued during the reporting period                                                         0                    $0
 For which a management decision was made during the reporting period                                 0                    $0
      (i) dollar value of recommendations that were agreed to by management                           0                    $0
      (ii) dollar value of recommendations that were not agreed to by management                      0                    $0
 For which no management decision had been made by the end of the reporting                           0                    $0
 period
 For which no management decision was made within six months of issuance                              0                    $0
     a. Because the CFPB is primarily a regulatory and policymaking agency, our recommendations typically focus on program
        effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated with their
        implementation typically is not readily quantifiable.




34      Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Appendix 2a
Audit, Inspection, and Evaluation Reports Issued to the Board with Recommendations That
Funds Be Put to Better Use during the Reporting Perioda
                                       Reports                                                 Number             Dollar value
 For which no management decision had been made by the commencement of the                         0                    $0
 reporting period
 That were issued during the reporting period                                                      0                    $0
 For which a management decision was made during the reporting period                              0                    $0
    (i) dollar value of recommendations that were agreed to by management                          0                    $0
    (ii) dollar value of recommendations that were not agreed to by management                     0                    $0
 For which no management decision had been made by the end of the reporting                        0                    $0
 period
 For which no management decision was made within six months of issuance                           0                    $0
  a. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on program
     effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated with their
     implementation typically is not readily quantifiable.


Appendix 2b
Audit, Inspection, and Evaluation Reports Issued to the CFPB with Recommendations That
Funds Be Put to Better Use during the Reporting Perioda
                                       Reports                                                 Number             Dollar value
 For which no management decision had been made by the commencement of the                         0                    $0
 reporting period
 That were issued during the reporting period                                                      0                    $0
 For which a management decision was made during the reporting period                              0                    $0
    (i) dollar value of recommendations that were agreed to by management                          0                    $0
    (ii) dollar value of recommendations that were not agreed to by management                     0                    $0
 For which no management decision had been made by the end of the reporting                        0                    $0
 period
 For which no management decision was made within six months of issuance                           0                    $0
  a. Because the CFPB is primarily a regulatory and policymaking agency, our recommendations typically focus on program
     effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated with their
     implementation typically is not readily quantifiable.




                                                        Semiannual Report to Congress │ October 1, 2012–March 31, 2013           35
Appendix 3a
OIG Reports to the Board with Recommendations That Were Open during the Reporting Perioda
                                                                   Recommendations        Status of recommendations
                                                                                             Last
                                                 Issue               Mgmt.      Mgmt.     follow-up
                 Report title                     date     No.       agrees   disagrees      date     Closed   Open
 Evaluation of Service Credit Computations       08/05      3           3        –          03/07        1      2
 Security Control Review of the Internet         02/07     13          13        –          03/13       13      –
 Electronic Submission System (Nonpublic
 Report)
 Security Control Review of the FISMA Assets     09/08     11          11        –          09/11       10      1
 Maintained by FRB Boston (Nonpublic
 Report)
 Evaluation of Data Flows for Board Employee     09/08      2           2        –          03/11        1      1
 Data Received by OEB and Its Contractors
 (Nonpublic Report)
 Audit of Blackberry and Cell Phone Internal     03/09      3           3        –          03/13        3      –
 Controls
 Security Control Review of the Audit Logging    03/09      4           4        –          09/11        3      1
 Provided by the Information Technology
 General Support System (Nonpublic Report)
 Security Control Review of the Lotus Notes      06/10     10          10        –            –          –      10
 and Lotus Domino Infrastructure (Nonpublic
 Report)
 Security Control Review of the Internet         12/10      6           6        –          03/13        3      3
 Electronic Submission System (Nonpublic
 Report)
 Response to a Congressional Request             06/11      2           2        –            –          –      2
 Regarding the Economic Analysis Associated
 with Specified Rulemakings
 Review of the Failure of Pierce Commercial      09/11      2           2        –            –          –      2
 Bank
 Security Control Review of the Visitor          09/11     10          10        –            –          –      10
 Registration System (Nonpublic Report)
 Summary Analysis of Failed Bank Reviews         09/11      3           3        –          03/13        2      1
                                                               b
 Evaluation of Prompt Regulatory Action          09/11     1            1        –            –          –      1
 Implementation
 Audit of the Board’s Information Security       11/11      1           1        –          11/12        –      1
 Program
 Review of RBOPS’ Oversight of the Next          01/12      2           2        –            –          –      2
 Generation $100 Note
 Security Control Review of the National         03/12      8           8        –            –          –      8
 Remote Access Services System (Nonpublic
 Report)
 Material Loss Review of the Bank of the         04/12      4           4        –          03/13        3      1
 Commonwealth
 Security Control Review of the Board’s Public   04/12     12          12        –            –          –      12
 Website (Nonpublic Report)
 Review of the Unauthorized Disclosure of a      07/12      3           3        –            –          –      3
 Confidential Staff Draft of the Volcker Rule
 Notice of Proposed Rulemaking
 Security Control Review of the Federal          08/12      9           9        –            –          –      9
 Reserve Bank of Richmond’s Lotus Notes
 Systems Supporting the Board’s Division of
 Banking Supervision and Regulation
 (Nonpublic Report)
 Inspection of the Board’s Protective Services   08/12      6           6        –          03/13        6      –
 Unit (Nonpublic Report)




36    Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Appendix 3a―continued
                                                                      Recommendations             Status of recommendations
                                                                                                      Last
                                                     Issue               Mgmt.        Mgmt.        follow-up
                  Report title                        date      No.      agrees     disagrees         date       Closed    Open
 Audit of the Small Community Bank                   08/12       1          1            –             –            –        1
 Examination Process
 Audit of the Board’s Government Travel Card         09/12       4          4            –             –            –        4
 Program
 Audit of the Board’s Actions to Analyze             09/12       2          2            –             –            –        2
 Mortgage Foreclosure Processing Risks
 Security Control Review of the Aon Hewitt           09/12       8          8            –             –            –        8
 Employee Benefits System (Nonpublic
 Report)
 2012 Audit of the Board’s Information Security      11/12       2          2            –             –            –        2
 Program
 Security Control Review of Contingency              12/12       5          5            –             –            –        5
 Planning Controls for the Information
 Technology General Support System
 (Nonpublic Report)
 Review of the Failure of Bank of Whitman            03/13       1          1            –             –            –        1
 Controls over the Board’s Purchase Card             03/13       3          3            –             –            –        3
 Program Can Be Strengthened
   a. A recommendation is closed if (1) the corrective action has been taken; (2) the recommendation is no longer applicable; or
      (3) the appropriate oversight committee or administrator has determined, after reviewing the position of the OIG and
      division management, that no further action by the agency is warranted. A recommendation is open if (1) division
      management agrees with the recommendation and is in the process of taking corrective action or (2) division management
      disagrees with the recommendation and we have referred or are referring it to the appropriate oversight committee or
      administrator for a final decision.
   b. This recommendation was directed jointly to the OCC, the FDIC, and the Board.



Appendix 3b
OIG Reports to the CFPB with Recommendations That Were Open during the Reporting Perioda
                                                                      Recommendations             Status of recommendations
                                                                                                     Last
                                                    Issue               Mgmt.         Mgmt.       follow-up
                 Report title                        date       No.     agrees      disagrees        date        Closed    Open
 Evaluation of the Consumer Financial               09/12        5         5            –              –            –        5
 Protection Bureau’s Consumer Response
 Unit
 2012 Audit of the Consumer Financial               11/12        3         3            –              –            –        3
 Protection Bureau’s Information Security
 Program
 Security Control Review of the Consumer            03/13        9         9            –              –            –        9
 Financial Protection Bureau’s Consumer
 Response System (Nonpublic Report)
 CFPB Contract Solicitation and Selection           03/13        3         3            –              –            –        3
 Processes Facilitate FAR Compliance, but
 Opportunities Exist to Strengthen Internal
 Controls
   a. A recommendation is closed if (1) the corrective action has been taken; (2) the recommendation is no longer applicable; or
      (3) the appropriate oversight committee or administrator has determined, after reviewing the position of the OIG and
      division management, that no further action by the agency is warranted. A recommendation is open if (1) division
      management agrees with the recommendation and is in the process of taking corrective action or (2) division management
      disagrees with the recommendation and we have referred or are referring it to the appropriate oversight committee or
      administrator for a final decision.




                                                        Semiannual Report to Congress │ October 1, 2012–March 31, 2013           37
Appendix 4a
Audit, Inspection, and Evaluation Reports Issued to the Board during the Reporting Period
                                             Title                                            Type of report
 Reviews of Bank Failures
 Review of the Failure of Bank of Whitman                                                       Evaluation
 Information Technology Audits
 2012 Audit of the Board’s Information Security Program                                           Audit
 Security Control Review of Contingency Planning Controls for the Information Technology          Audit
 General Support System (Nonpublic Report)
 Program Audits, Inspections, and Evaluations
 No Changes Recommended to Freedom of Information Act Exemption Included in the                 Evaluation
 Amended Federal Reserve Act
 Audit of the Board of Governors of the Federal Reserve System Financial Statements as of         Audit
 and for the Years Ended December 31, 2012 and 2011, and Independent Auditors’ Report
 Audit of the Federal Financial Institutions Examination Council Financial Statements as of       Audit
 and for the Years Ended December 31, 2012 and 2011, and Independent Auditors’ Report
 Status of the Transfer of Office of Thrift Supervision Functions                               Evaluation
 Controls over the Board’s Purchase Card Program Can Be Strengthened                              Audit
 Audit Observations on the Board' s Planning and Contracting Process for the Martin               Audit
 Building Construction, Renovation, and Relocation of Staff


Total number of audit reports: 6
Total number of inspection and evaluation reports: 3

Full copies of the public reports are available on our website:
http://www.federalreserve.gov/oig/default.htm


Appendix 4b
Audit, Inspection, and Evaluation Reports Issued to the CFPB during the Reporting Period
                                             Title                                            Type of report
 Program Audits, Inspections, and Evaluations
 CFPB Contract Solicitation and Selection Processes Facilitate FAR Compliance, but              Evaluation
 Opportunities Exist to Strengthen Internal Controls
 Information Technology Audits
 2012 Audit of the Consumer Financial Protection Bureau’s Information Security Program            Audit
 Security Control Review of the Consumer Financial Protection Bureau’s Consumer                   Audit
 Response System (Nonpublic Report)


Total number of audit reports: 2
Total number of inspection and evaluation reports: 1

Full copies of the public reports are available on our website:
http://www.federalreserve.gov/oig/default.htm




38    Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Appendix 5
OIG Peer Reviews
Government auditing and investigative standards require that our audit and investigative units each be
reviewed by a peer OIG organization every three years. Section 989C of the Dodd-Frank Act
amended the IG Act to require that OIGs provide in their semiannual reports to Congress specified
information regarding (1) peer reviews of their respective organizations and (2) peer reviews they have
conducted of other OIGs. The following information addresses these Dodd-Frank Act requirements.

    •   The last peer review of the OIG’s audit organization was completed in December 2011 by the
        Pension Benefit Guaranty Corporation OIG. We received a peer review rating of pass. There
        were no report recommendations, nor were any peer review recommendations pending from
        any previous peer reviews of our audit organization.

    •   The last peer review of the OIG’s Investigations program was completed in March 2008 by
        the U.S. Government Printing Office OIG. No recommendations from this or any prior peer
        reviews are pending. On June 9, 2010, the U.S. Attorney General approved the OIG’s request
        for statutory law enforcement authority. As a result and in accordance with Attorney General
        guidelines, the next peer review of the Investigations office is due three years from the date of
        receiving statutory law enforcement authority.

    •   During this reporting period, we completed a review of the system of internal safeguards and
        management procedures in effect during May 1, 2011, through May 18, 2012, for the
        investigative functions of the OIG for the Corporation for National and Community Service
        (CNCS). Our review was conducted in conformity with CIGIE and Attorney General
        guidelines, as applicable. In our opinion, the system of internal safeguards and management
        procedures for the investigative function of the CNCS OIG in effect during the period May 1,
        2011, through May 18, 2012, is compliant with the quality standards established by CIGIE
        and the applicable Attorney General guidelines. These safeguards and procedures provide
        reasonable assurance of the CNCS OIG’s conformance with professional standards in the
        planning, execution, and reporting of its investigations. The CNCS IG concurred with our
        recommendation and indicated that her staff is taking actions to implement our
        recommendation. There were no open recommendations for the CNCS OIG from prior peer
        reviews.

Copies of peer review reports of our organization are available on our website:
http://www.federalreserve.gov/oig/peer_review_reports.htm




                                             Semiannual Report to Congress │ October 1, 2012–March 31, 2013   39
Appendix 6
Index of IG Act Reporting Requirements
           Section                                                  Subject                                  Page(s)
 4(a)(2)                    Review of legislation and regulations                                              31
 5(a)(1)                    Significant problems, abuses, and deficiencies                                    None
 5(a)(2)                    Recommendations with respect to significant problems                              None
 5(a)(3)                    Significant recommendations described in previous semiannual reports on which     None
                            corrective action has not been completed
 5(a)(4)                    Matters referred to prosecutorial authorities                                      29
 5(a)(5); 6(b)(2)           Summary of instances where information was refused                                None
 5(a)(6)                    List of audit, inspection, and evaluation reports                                  38
 5(a)(7)                    Summary of particularly significant reports                                       None
 5(a)(8)                    Statistical table of questioned costs                                              34
 5(a)(9)                    Statistical table of recommendations that funds be put to better use               35
 5(a)(10)                   Summary of audit, inspection, and evaluation reports issued before the            None
                            commencement of the reporting period for which no management decision has been
                            made
 5(a)(11)                   Significant revised management decisions made during the reporting period         None
 5(a)(12)                   Significant management decisions with which the Inspector General is in           None
                            disagreement
 5(a)(14), (15), and (16)   Peer review summary                                                                39




40     Semiannual Report to Congress │ October 1, 2012–March 31, 2013
Abbreviations


      Abbreviation                                      Description

A/E                  Architectural and engineering
ATF                  Bureau of Alcohol, Tobacco, Firearms, and Explosives
Board                Board of Governors of the Federal Reserve System
BS&R                 Division of Banking Supervision and Regulation
CEO                  Chief Executive Officer
CFPB                 Consumer Financial Protection Bureau
CIGFO                Council of Inspectors General on Financial Oversight
CIGIE                Council of the Inspectors General on Integrity and Efficiency
CIO                  Chief Information Officer
CNCS                 Corporation for National and Community Service
CRS                  Consumer Response System
DIF                  Deposit Insurance Fund
Dodd-Frank Act       Dodd-Frank Wall Street Reform and Consumer Protection Act
FAR                  Federal Acquisition Regulation
FBI                  Federal Bureau of Investigation
FDI Act              Federal Deposit Insurance Act
FDIC                 Federal Deposit Insurance Corporation
FFIEC                Federal Financial Institutions Examination Council
FISMA                Federal Information Security Management Act of 2002
FMU                  Financial Market Utility
FOIA                 Freedom of Information Act
FRA                  Federal Reserve Act
FRB San Francisco    Federal Reserve Bank of San Francisco
FSOC                 Financial Stability Oversight Council
IG                   Inspector General
IG Act               Inspector General Act of 1978, as amended
IRS                  Internal Revenue Service
ISO                  Information Security Officer
IT                   Information Technology
IT GSS               General Support System supported by the Division of Information
                     Technology



                                         Semiannual Report to Congress │ October 1, 2012–March 31, 2013   41
       Abbreviation                                                 Description

 JPMC                        JPMorgan Chase
 NIST                        National Institute of Standards and Technology
 OCC                         Office of the Comptroller of the Currency
 OIG                         Office of Inspector General
 OMB                         Office of Management and Budget
 OTS                         Office of Thrift Supervision
 SIC                         Secure Inventory Closet
 SIGTARP                     Special Inspector General for the Troubled Asset Relief Program
 Treasury                    U.S. Department of the Treasury




42     Semiannual Report to Congress │ October 1, 2012–March 31, 2013
                                          OFFICE   OF    INSPECTOR GENERAL




                              Semiannual Report to Congress
                               October 1, 2012– March 31, 2013




 www.federalreserve.gov/oig
                                BOARD   OF   GOVERNORS   OF THE   FEDERAL RESERVE SYSTEM
www.consumerfinance.gov/oig
          04/13                         CONSUMER FINANCIAL PROTECTION BUREAU
